<html>
<title> - LEGISLATION TO STRENGTHEN FEMA AND BETTER INTEGRATE IT INTO THE DEPARTMENT OF HOMELAND SECURITY, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
    LEGISLATION TO STRENGTHEN FEMA AND BETTER INTEGRATE IT INTO THE 
                             DEPARTMENT OF
               HOMELAND SECURITY, AND FOR OTHER PURPOSES

=======================================================================

                              FULL HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 9, 2006

                               __________

                           Serial No. 109-74

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                    U.S. GOVERNMENT PRINTING OFFICE
36-958                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012007
                               __________
?

                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael T. McCaul, Texas             James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, Chairman, Committee on Homeland Security     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, Ranking Member, Committee on 
  Homeland Security..............................................     2
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    61
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the States of California.......................................    50
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylavnia..........................................    60
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    27
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolian....................................    54
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas:
  Oral Statement.................................................    57
  Prepared Statement.............................................    60
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    48
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas........................................    44
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey...................................    42
The Honorable Stevan Pearce, a Representative in Congress From 
  New Mexico.....................................................    55
The Honorable Dave G. Reichert, a Representative in Congress From 
  the State of Washington........................................     4
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama...............................................    52

                               WITNESSES

Mr. Eric Holdeman, Director, Office of Emergency Management, King 
  County, State of Washington:
  Oral Statement.................................................    38
  Prepared Statement.............................................    40
Dr. William O. Jenkins, Jr., Director, Homeland Security and 
  Justice, Government Accountability Office:
  Oral Statement.................................................     4
  Prepared Statement.............................................     7
Mr. Barry Kasinitz. Director, Governmental/Legislative Affairs, 
  International Association of Fire Fighters:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29
Mr. Steven V. Lenkart, Director of Legislative Affairs, 
  International Brotherhood of Police Officers:
  Oral Statement.................................................    33
  Prepared Statement.............................................    36


                     LEGISLATION TO STRENGTHEN FEMA
      AND BETTER INTEGRATE IT INTO THE DHS, AND FOR OTHER PURPOSES

                              ----------                              


                          Tuesday, May 9, 2006

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:05 p.m., in Room 
345, Cannon House Office Building, Hon. Peter King [chairman of 
the committee] presiding.
    Present: Representatives King, Lungren, Rogers, Pearce, 
Reichert, Dent, Brown-Waite, Thompson, Dicks, DeFazio, Norton, 
Jackson-Lee, Pascrell, Christensen, Etheridge, and Meek.
    Mr. King. The Committee on Homeland Security will come to 
order. The committee is meeting today to hear testimony on 
proposed legislation addressing emergency management problems 
within the Department of Homeland Security, which were exposed 
by Hurricanes Katrina and Rita.
    I recognize myself for 5 minutes, and my opening statement 
will be brief, but I want at the very outset to commend 
Chairman Dave Reichert and Chairman Mike McCaul for the 
leadership they have shown on our side in putting together what 
I believe is very comprehensive legislation.
    I would also, since this is, I believe and I hope, to be a 
very bipartisan effort, want to once again the Ranking Member 
Mr. Thompson from Mississippi for the work that he has done and 
also my good friend from New Jersey, Bill Pascrell, and 
Congressman Etheridge from the State of North Carolina for the 
work they have done in working to I think bring together a 
very, very worthwhile piece of legislation.
    All of us saw what happened last summer, August and 
September, with Katrina, and then after that, Rita. We saw 
serious deficiencies at all levels of government. It is our 
job, however, to do what we can to address the serious gaps 
which did exist at the Federal level, and that is the purpose 
of this hearing, and that is what the purpose of the 
legislation is going to be. Those of us supporting the 
legislation strongly believe that FEMA should not be taken out 
of the Department of Homeland Security.
    We can't always be overreacting or have a knee-jerk 
reaction to the last crisis. We have to do what is best, and 
what is best for the long term, I believe, is for FEMA to be 
kept within the Department of Homeland Security. However, as 
the testimony today and as the markup, which we hope to have 
conducted next week, will bring out, we want to combine the 
preparedness and response functions of the Department of 
Homeland Security and provide the under secretary for 
Preparedness with a direct reporting relationship to the 
President during incidents of national significance. By raising 
it to this under secretary level, by setting in motion this 
direct line of communication with the President, that, to me, 
is probably the most significant change that is going to be 
brought about by this.
    But, in any event, we have experts here today that I want 
to thank for coming, and I certainly want to thank those of the 
members of the committee on both sides who are working so hard 
to come up with a coherent response, not just a knee-jerk 
response, but one which makes sense and which will get results 
and will certainly and hopefully have us much better prepared 
the next time if, God forbid, such a tragedy should occur as 
Katrina.
    With that I now recognize the ranking member of the 
committee, the gentleman from Mississippi, Mr. Thompson. And 
before I ask him to speak, I want to thank him again for the 
bipartisan help he gave us on the port security bill, which did 
pass the House overwhelmingly last week by a vote of 421-2. I 
think it was a great, great effort by this committee, and it 
certainly asserted ourselves as real players in the areas of 
great national and international importance.
    With that, I recognize the ranking member from Mississippi.
    Mr. Thompson. Thank you very much, Mr. Chairman, and I 
appreciate your kind comments. I think a lot of us, even though 
we supported the port bill, we would have loved to have had 100 
percent cargo screening as one of the components, and I look 
forward to a conference report or something to try to get that 
in.
    However, we are here today to look at FEMA. As most of you 
know, my area was impacted by Hurricane Katrina. I was without 
lights personally for 7 days. However, those persons impacted 
in the gulf coast region couldn't communicate with each other 
for 3 days, and that was a problem.
    All of us recognize that FEMA failed the test. The question 
is whether or not they will become any better inside the 
Department of Homeland Security or outside. There are examples 
where they failed as an independent agency, and, obviously, the 
Katrina-Rita experience indicates that they failed inside. But 
there are some basic things that I am convinced that we have to 
have.
    First of all, we need someone to run the agency who is 
qualified. We just can't have a political crony running an 
agency as important as FEMA. The other thing is that person has 
to have direct communication with the White House. That 
individual in time of an incident of national significance 
should not have to go through some chain of command to marshal 
the assets necessary to respond to that emergency. It just 
should not be.
    So with all of the lessons learned from Katrina, I hope we 
can put together and support legislation that is being 
considered by this committee. Moving the furniture is not just 
good enough, we have to fix the internal controls. Why have we 
put the preparedness directorate outside of FEMA? That is 
absolutely a no-brainer for a lot of us on this committee 
because that adds one layer of bureaucracy to an already 
cumbersome process.
    So I look forward to the testimony. I want to compliment 
the chairman in moving forward on trying to get something done. 
We have to do it. The public demands it. I was embarrassed at 
what I saw, especially in the New Orleans area. As a member of 
the committee and as a Member of Congress, I was assured we 
could do better, and we didn't.
    I would not want to see any of the calamities associated 
with Katrina repeated again. I am not certain that by June 1 we 
are there. I have not had any briefings, as far as I know, Mr. 
Chairman, by FEMA or the Department to assure us that the 
lessons learned from Katrina won't be repeated. So this 
legislation is timely. It is unfortunate that in some instances 
we might have to micromanage the agency rather than let the 
professionals do it. But I think we are convinced that this 
hearing is in order, and I look forward to the testimony.
    I yield back the balance of the time.
    The Chairman. Thank you, Mr. Thompson.
    I have been advised by staff that the new FEMA Director 
Chief Paulson has offered to come in and brief us, so we will 
certainly take him up on that.
    Mr. Thompson. Good.
    The Chairman. Thank you.
    Under our committee rules, opening statements are limited 
to the chair and ranking member. However, all members are 
entitled to submit written opening remarks for the record. Due 
to our time constraints today, we will move immediately to the 
testimony from our witnesses.
    And now I would recognize the gentleman from Washington, 
Mr. Reichert, who along with Mr. McCaul has done so much work 
on this legislation, and I would ask him to introduce our 
distinguished panel.
    Chairman Reichert.
    Mr. Reichert. [Presiding.] Thank you, Mr. Chairman, for 
yielding, and I am pleased to welcome our distinguished panel 
today to share their thoughts and opinions on the National 
Emergency Management Reform and Enhancement Act of 2006, the 
proposed legislation before us, which is based on multiple 
hearings and countless hours of testimony from emergency 
response providers, emergency response support providers, 
emergency managers, State and local and tribal officials, and 
many others.
    It is completely bipartisan and is the product of much hard 
work by Congressman McCaul, Pascrell, Etheridge, King, and 
Thompson. As the legislation's sponsor, I want to thank all of 
them for their tremendous work, partnership, and their support 
on this important bill. The legislation offers a 21st century 
solution to the Department's problem by strengthening and 
better integrating FEMA into DHS, and by implementing many of 
the commonsense lessons learned from the various investigations 
into Hurricane Katrina.
    This panel is representative of the transparent and 
inclusive process that Congressmen McCaul, Pascrell, Etheridge, 
King, Thompson and I adopted in drafting the legislation at 
issue here today.
    Testifying on behalf of the Government Accountability 
Office is Dr. William Jenkins. Dr. Jenkins has been with the 
GAO for more than 26 years and is widely recognized as an 
expert on homeland security issues.
    Dr. Jenkins, it is good to see you today. Thank you for 
being here. It is a pleasure to have you, and we look forward 
to your testimony.
    Representing the International Association of Fire Fighters 
today is Barry Kasinitz. I hope I pronounced that halfway 
correctly. The IAFF has testified before this committee on 
numerous occasions, and we are pleased to see them represented 
here again today.
    You have been involved, I know, in some of the most 
critical issues related to firefighters, such as the creation 
of the Fire Act Grant Program, and we welcome your comments on 
behalf of IAFF.
    As a former cop, it is good to see a representative of the 
International Brotherhood of Police Officers and the Law 
Enforcement Steering Committee. Stephen Lenkart is no stranger 
to testifying before this committee. And, as always, we 
appreciate your sharing your views with us today.
    Finally, I am especially pleased to introduce Eric 
Holdeman, the Director of the Office of Emergency Management in 
King County, Washington, where I served as sheriff, and Eric 
and I worked as partners. Not only is he a resident of the 
district but a good friend.
    Good to see you, and thank you for being here.
    He participated in and the TopOff two exercise in Seattle. 
As the Director of Emergency Management, Eric has been with 
King County since 1996, and he is responsible for facilitating 
regional coordination between all levels of government, as well 
as across emergency management programs in the public and 
private sectors. Eric is the past president of the Washington 
State Emergency Management Association, and in 2005, Eric was 
given a national award by the National Association of Counties 
for establishing a regional approach to homeland security. 
Additionally, the September 11th Commission recognized King 
County's regional disaster response plan as a best practice for 
integrating the private business sector into community-wide 
disaster planning.
    Immediately prior to assuming his position in Kent County, 
Eric worked for the Washington State Division of Emergency 
Management for 5 years. And previously, Eric completed a 20-
year career in the U.S. Army as an infantry officer. While in 
the military, he served in a variety of assignments in which he 
developed and managed operation centers and was responsible for 
contingency planning.
    I am very pleased the full committee is holding this 
hearing today, and I look forward to hearing from our panel and 
I thank the chairman.
    We will begin by recognizing Dr. Jenkins.

   STATEMENT OF WILLIAM O. JENKINS, JR., DIRECTOR, HOMELAND 
     SECURITY AND JUSTICE GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Jenkins. Congressman Reichert, Ranking Member Thompson, 
and members of the committee, I appreciate the opportunity to 
be here today to discuss some of the issues associated with the 
future success of the Federal Emergency Management Agency and 
national emergency management functions. In geographic scope, 
severity of damage, and the number of persons displaced from 
their homes, Hurricane Katrina was a catastrophic disaster 
without precedent in our Nation's history. It strained and, in 
many cases, overwhelmed the response capacities of affected 
State and local governments and the Federal Government. The 
effects of Katrina will be felt for many years to come.
    As the various reports on Katrina have detailed, Katrina 
graphically demonstrated the limitations of the Nation's 
readiness and ability to respond effectively to a catastrophic 
disaster, even one for which we had clear and accurate warning. 
FEMA within DHS has the primary responsibility for coordinating 
and implementing key aspects of emergency management 
preparedness and response. Reports from the House, Senate, 
White House, DHS Inspector General and FEMA itself have all 
identified shortcomings in FEMA's performance before and after 
Katrina landed, and a number of those recommendations have been 
made for addressing those shortcomings.
    Among these proposals, some have recommended altering the 
organizational placement of FEMA, including returning it to an 
independent agency. In the last 40 years, there have been 
several organizational structures for Federal disaster 
preparedness, response and assistance responsibilities. In the 
1960s and 1970s, disaster assistance activities were within the 
Department of Housing and Urban Development. FEMA was created 
as an independent agency in 1979, consolidating 
responsibilities with a number of other Federal agencies, and 
was elevated to Cabinet status in 1996. In March 2003, FEMA 
became part of the new Department of Homeland Security.
    The history of the Federal Government's approach to 
emergency management reflects the experience with specific 
major disasters, such as Hurricane Andrew in 1992, the 
September 11th terrorist attacks and, most recently, Hurricane 
Katrina. As Congress considers the future of FEMA, it is useful 
to remember that FEMA provides little direct assistance. 
Rather, historically, its role has been generally one of 
coordination: to identify, marshal and coordinate the resources 
and actions of others.
    A catastrophic disaster such as Katrina almost immediately 
overwhelms local and State capacity to respond effectively or 
even to respond at all. In preparing to respond to any major 
disaster, but particularly a catastrophic one, the roles, 
responsibilities and lines of authority at all levels of 
government must be clearly defined and effectively communicated 
to facilitate rapid and effective decision-making. At the same 
time, the best decision-making can have little results unless 
it can rely upon the trained and experienced leaders equipped 
with the resources and capabilities needed to implement those 
decisions effectively.
    Capabilities, that is the ability to carry out specific 
tasks with desired results, are built upon the appropriate 
combination of resources, including people, technology and 
funds. Ensuring those capabilities are available and effective 
requires sound planning, coordination, training and exercises 
in which capabilities are realistically tested, problems 
identified and appropriately addressed.
    Although organizational placement is important, other 
factors may ultimately be more important to FEMA's future 
success. These include, number one, the clarity of FEMA's 
mission and related responsibilities and authorities; number 
two, the experience of and training provided to FEMA's 
leadership; three, the adequacy of its human, financial and 
technological resources; and four, the effectiveness of 
planning, exercises and related partnerships with State and 
local governments and nongovernmental entities.
    At the same time, as Congress considers the most 
appropriate placement for FEMA, they may also wish to consider 
some additional issues, such as the following: the relevance of 
FEMA's mission to any broader organization in which it may 
reside; the extent to which there are shared goals and 
objectives; the ability to leverage effectively the resources 
of other agencies and programs; and any gains in efficiency and 
effectiveness through eliminating unnecessary duplication and 
overlaps.
    The next major response and recovery challenge the Nation 
will face, whether from natural or manmade causes, is 
unpredictable. However, success in responding to the next 
catastrophe is less likely to rely on organizational placement 
than upon such factors as clear focus, skilled leadership, 
clear roles and responsibilities, operational plans 
realistically exercised, and key resources appropriately and 
effectively deployed.
    That concludes my statement, and I will be happy to answer 
any questions members of the committee may have.
    [The statement of Mr. Jenkins follows:]

    [GRAPHIC] [TIFF OMITTED] T6958.001
    
    [GRAPHIC] [TIFF OMITTED] T6958.002
    
    [GRAPHIC] [TIFF OMITTED] T6958.003
    
    [GRAPHIC] [TIFF OMITTED] T6958.004
    
    [GRAPHIC] [TIFF OMITTED] T6958.005
    
    [GRAPHIC] [TIFF OMITTED] T6958.006
    
    [GRAPHIC] [TIFF OMITTED] T6958.007
    
    [GRAPHIC] [TIFF OMITTED] T6958.008
    
    [GRAPHIC] [TIFF OMITTED] T6958.009
    
    [GRAPHIC] [TIFF OMITTED] T6958.010
    
    [GRAPHIC] [TIFF OMITTED] T6958.011
    
    [GRAPHIC] [TIFF OMITTED] T6958.012
    
    [GRAPHIC] [TIFF OMITTED] T6958.013
    
    [GRAPHIC] [TIFF OMITTED] T6958.014
    
    [GRAPHIC] [TIFF OMITTED] T6958.015
    
    [GRAPHIC] [TIFF OMITTED] T6958.016
    
    [GRAPHIC] [TIFF OMITTED] T6958.017
    
    [GRAPHIC] [TIFF OMITTED] T6958.018
    
    [GRAPHIC] [TIFF OMITTED] T6958.019
    
    [GRAPHIC] [TIFF OMITTED] T6958.020
    
    Mr. Reichert. Thank you, Dr. Jenkins.
    The chair recognizes Barry Kasinitz.

STATEMENT OF BARRY KASINITZ, DIRECTOR, GOVERNMENTAL/LEGISLATIVE 
       AFFAIRS INTERNATIONAL ASSOCIATION OF FIRE FIGHTERS

    Mr. Kasinitz. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Chairman, I take it we are going to wait for 
all the others to testify before we ask questions?
    Mr. Reichert. That's correct.
    Mr. Kasinitz. Mr. Chairman, Ranking Member Pascrell, and 
members of the committee. My name is Barry Kasinitz, and I 
serve as Director of Governmental Affairs for the International 
Association of Fire Fighters, and I am pleased to be here today 
on behalf of General President Harold Schaitberger and more 
than a quarter million emergency response personnel who belong 
to our organization.
    Whenever and wherever disaster strikes, the Nation's 
professional fire fighters are on the front lines working 
tirelessly to save lives and protect the public. Whether it is 
a terrorist event or a natural disaster, the men and women of 
the IAFF are the first to arrive and the last to leave. Their 
dedication is matched only by the technical expertise they 
bring to their mission.
    Today's professional fire fighter, an all-purpose 
responder, is trained in such disciplines as emergency medical 
care, hazardous materials response and specialized rescue 
missions. It is from this perspective, as the frontline 
emergency responders, that we commend you on the initiative 
before you today.
    Our Nation's emergency response system is badly broken and 
desperately in need of repair. The National Emergency 
Management Reform and Enhancement Act is an important stride 
forward in creating a new paradigm for the way our Nation 
responds to disasters.
    FEMA's response to Katrina offers a case study of all that 
is wrong with our current system. The first role of government 
in a disaster is to protect lives, which is what the fire 
fighters did in the days and weeks following the onset of 
Katrina. FEMA played no role in aiding emergency response and, 
in fact, hindered our efforts. By hoarding desperately needed 
resources, FEMA prevented local emergency responders from doing 
their job. And as New Orleans fire fighters worked around the 
clock, exhausted and in desperate need of relief, FEMA called 
up over a thousand fire fighters nationwide to serving as 
community relations officers, tasking them with the 
distribution of informational fliers. FEMA even hindered the 
deployment of fire fighters under the EMAC system by creating 
confusion regarding whether or not local communities would be 
reimbursed for sending fire fighters to the scene.
    But perhaps the greatest tragedy of all was that the 
response to Katrina should have been so much better. Following 
the cataclysmic events of September 11th, our Nation decided we 
needed a better way to respond to major disasters. Congress 
responded forcefully by creating the Department of Homeland 
Security, the National Response Plan, and the National Incident 
Management System. And the President issued a series of 
directives that were meant to change not only programs but ways 
of thinking. Katrina was the first test of this new order, and 
it failed miserably.
    So what went wrong? The first problem lies in how the 
Department was created. Whole agencies, each with their own 
culture and history, were haphazardly scotch taped together to 
form the new department. Personnel still functioned within the 
bubbles of their original agencies and didn't even understand 
their new missions. DHS officials at the highest level 
undertook actions in Katrina that ran counter completely to the 
Natural Response Plan.
    Moreover, much of the NRP simply doesn't make sense in the 
real world. The plan fails to utilize the greatest resource our 
Nation has to respond to disasters: The network of highly-
trained emergency response personnel stationed in nearly every 
community in America. Responsibility for mobilizing fire 
fighters is given to the Department of Agriculture.
    The legislation before you would address many of these 
shortcomings and would provide the necessary framework to 
improve NIMS and the NRP. The Act provides FEMA with a fresh 
start. By eliminating old boundaries and establishing a new 
directorate, complete with new structures and relationships, we 
believe you eliminate many of the problems that have plagued 
the Department.
    The legislation appropriately reunites preparedness and 
response and restores strong leadership by assuring that the 
under secretary is an experienced emergency manager with direct 
access to the President during disasters. We also thank you for 
including a medical monitoring program to protect the health of 
our emergency responders. And we strongly support the act's 
all-hazards approach.
    Too much time has been spent on misguided attempts to 
differentiate between natural and manmade disasters. Whether a 
building's collapse is caused by an earthquake or terrorist 
bomb, the response is the same. None of us knows what the next 
disaster will look like. And by recognizing this fact, the 
government will be better prepared to respond to the challenges 
that faces us next.
    There remains, however, one significant omission in the 
current drafted legislation. Government's paramount mission 
when disaster strikes is to save lives and protect the public 
safety. Yet the current Federal emergency response system fails 
to adequately utilize the single most valuable resource we 
have: our Nation's emergency response personnel.
    To be sure, fire fighters and other responders already 
respond in a massive way to disasters, but they do so largely 
outside the scope of the Federal Government. Fire fighters are 
officially deployed under an interstate compact and various 
mutual aid agreements and unofficially deployed based on 
nothing more than a personal desire to help.
    The arrival of fire fighters on the scene has too often 
been chaotic and less than fully effective. Too many well--
meaning fire fighters self dispatch, not waiting to be 
mobilized as part of an official call-up. And also the 
qualifications for fire fighters vary widely. Just because a 
person calls themselves a fire fighter doesn't always mean they 
are capable of doing what fire fighters should be able to do.
    Standards for fire fighter training are too often ignored, 
and there is no way to determine who has the proper training. 
This uncertainty prevents on-scene incident commanders from 
fully utilizing their most valuable resources. And there 
appears to be little coordination between EMAC, which deploys 
fire fighters, and FEMA, which reimburses communities for the 
cost.
    The solution is to amend the National Response Plan to make 
full use of everything local fire fighters can provide. We 
propose establishing a Federal credentialing and deployment 
system to provide incident commanders with a group of highly-
trained and equipped fire fighters in a timely fashion. Making 
this one change would do more to protect our citizens than 
anything else we can recommend.
    I am pleased to note, Mr. Chairman, that we have been 
working with your extraordinary staff in recent days on 
language to achieve this goal, and I thank you for your support 
of this effort.
    In conclusion, let me just say that implementing the 
changes that you have outlined will be challenging. But the 
IAFF has every confidence that restructuring our Nation's 
emergency response system can and will succeed. The National 
Emergency Management Reform and Enhancement Act is a great 
start. Our Nation's fire fighters are ready to respond to the 
next disaster, Mr. Chairman, no matter what form it takes, but 
we can't do it alone. Congress must act now to help the fire 
service more effectively respond to future disasters.
    I thank you for your attention, and I will be happy to 
answer any questions you may have.
    [The statement of Mr. Kasinitz follows:]

                  Prepared Statement of Barry Kasinitz

    Thank you Mr. Chairman, Ranking Member Thompson and distinguished 
members of the Committee for the opportunity to testify before you 
today. My name is Barry Kasinitz, and I serve as Director of 
Governmental Affairs for the International Association of Fire Fighters 
(IAFF). I am pleased to appear before you today on behalf of our 
General President Harold Schaitberger and the more than quarter million 
full-time emergency response personnel who comprise our organization.
    Whenever and wherever disaster strikes, America's professional fire 
fighters and emergency medical personnel are on the front lines working 
tirelessly and heroically to save lives and protect the public safety. 
Whether it is a bomb in Oklahoma City, an earthquake in San Francisco, 
terrorist attacks on the World Trade Center or massive flooding in the 
Gulf Coast, the men and women of the IAFF are the first to arrive on 
the scene and the last to leave.
    Our members' dedication and bravery is matched only by the 
technical expertise they bring to their mission. The days of fire 
fighters whose primary function was simply putting water on the fire 
are long gone. Today's professional fire fighter is an all-purpose 
emergency responder trained in such specialized disciplines as 
hazardous/WMD materials response and high-angle, confined space and 
water rescue. The modern fire service is also our nation's preeminent 
provider of emergency medical services. In a 2004 survey of the 200 
most populous American cities by the Journal of Emergency Medical 
Services, 90% reported that medical first response is provided to their 
populace by fire service personnel.\1\
---------------------------------------------------------------------------
    \1\ Williams, Dave. ``2004 JEMS 200 City Survey''. Journal of 
Emergency Medical Services 23.2 (February 2005): 42-60.
---------------------------------------------------------------------------
    It is from this perspective as front line emergency responders that 
we commend and congratulate the Committee on the initiative before you 
today. Our nation's emergency response system is badly broken and in 
desperate need of repair. The National Emergency Management Reform and 
Enhancement Act is an important stride forward in creating a new 
paradigm for the way our nation responds to natural and man-made 
disasters.

                         Our Katrina Experience

    The first response to any disaster, no matter its scope, is always 
at the local level. When Hurricane Katrina ravaged the Gulf Coast last 
summer, local fire fighters were the first to respond, performing 
search and rescue, providing emergency medical assistance, and yes, 
even putting out fires.
    But the federal government has a significant role to play as well. 
The single most important thing the government can do to save lives and 
protect public safety during a disaster is ensure the effective 
mobilization, and support, of the fire service. In this respect, the 
federal government completely botched its response to Katrina.
    After Katrina struck, it was over a week before exhausted New 
Orleans fire fighters first encountered anyone from FEMA. And even 
then, FEMA hindered, rather than helped, local response by hoarding 
desperately needed resources. Some local fire fighters in New Orleans 
were unable to fuel their engines, even though FEMA had a large fuel 
supply. Other local fire fighters were forced to break into a retail 
outlet to obtain a generator to charge their radios, because FEMA had 
stockpiled all the batteries. Despite the urgency of the situation and 
the lifesaving importance of fire fighters' work, requests to FEMA for 
such basic supplies went unanswered.
    To alleviate FEMA's shortcomings, the IAFF mobilized its own 
members to deliver supplies and provide general support to fire 
fighters along the Gulf Coast, assisting over 5000 frontline responders 
with basic needs such as communications, food, medical care and 
supplies.
    And as New Orleans fire fighters worked around the clock, exhausted 
and in desperate need of relief, FEMA called up over 1000 fire fighters 
to serve as ``community relations officers,'' tasking them with the 
distribution of informational fliers. But rather than deploy these 
highly skilled and highly trained professionals to relieve local first 
responders, our members sat in hotel rooms in Atlanta.
    Separately, hundreds of fire fighters from around the nation 
participated in the response efforts under the EMAC deployment system, 
but here too FEMA hindered rather than helped the effort. By creating 
confusion regarding whether local communities would be reimbursed for 
sending fire fighters, FEMA delayed by several days the mobilization of 
emergency response personnel.
    FEMA should be a resource for first responders to do their jobs--
not the other way around. Put simply, Mr. Chairman, FEMA failed our 
first responders.

                          The Post 9-11 World

    These failures of the government's response are horrific, but 
perhaps the biggest tragedy of all was that the response to Katrina 
should have been much better. Following the cataclysmic events of 
September 11, 2001, our nation decided that we needed a better way to 
respond to major disasters. Congress and the Administration moved 
quickly and forcefully to develop new systems to be better prepared for 
the next disaster.
    We created the Department of Homeland Security, the largest 
reorganization of the federal government in half a century. The 
President of the United States issued a series of Directives that were 
meant to change not only programs, but ways of thinking, leading to the 
creation of the National Incident Management System (NIMS) and the 
National Response Plan (NRP).
    Katrina was the first test of this new order, and it failed 
miserably.
    So what went wrong here? Why, after four years, billions of 
dollars, and countless man-hours, did the first test of our nation's 
new preparedness and response system fail?

          Problems with the Federal Emergency Response System

    The first problem lies in how the Department of Homeland Security 
was originally created. Whole agencies, each with their own culture and 
history, were ``scotch-taped'' together, sometimes haphazardly, to form 
the new Department. The result was as though pieces from various jigsaw 
puzzles had been forced together to form a single picture. Personnel 
still functioned within the bubbles of their original agencies, and 
they kept doing their jobs as they had all along. The result didn't 
always best serve the new department.
    Furthermore, it seems clear that Department personnel didn't even 
understand their own emergency response plans. According to the Final 
Report of the Select Bipartisan Committee to Investigate the 
Preparation for and Response to Hurricane Katrina, ``the Secretary [of 
Homeland Security] was confused about the role and authority of the 
PFO'' as outlined in the National Response Plan.\2\ The report cites 
Secretary Chertoff's designation of Michael Brown as PFO, even though 
Brown had not completed the training program required by the NRP.\3\ 
Furthermore, the report notes that the Secretary did not seemingly 
recognize until almost two weeks after Michael Brown's replacement as 
PFO that it was the FCO who had the authority to direct federal funds 
and agencies to respond to the disaster.\4\
---------------------------------------------------------------------------
    \2\ United States Cong. House. Select Bipartisan Committee to 
Investigate the Preparation for and Response to Hurricane Katrina. A 
Failure of Initiative. 109th Cong., 2nd sess., 2006. H. Rpt. 109-377. 
Washington: GPO, 2006.
    \3\ Ibid.
    \4\ Ibid.
---------------------------------------------------------------------------
    Perhaps it is understandable that even Secretary Chertoff didn't 
understand the National Response Plan. In many ways, the Plan didn't, 
and doesn't, make sense in the real world. For example, the Plan fails 
to adequately utilize the greatest resource our nation has to respond 
to disasters: the network of highly trained emergency response 
personnel stationed in nearly every community in America. Under the 
NRP, the Department of Agriculture, specifically, the Forest Service, 
is responsible for ``mobilizing firefighting resources in support of 
State, local and tribal wildland, rural, and urban firefighting 
agencies.'' \5\ It is hard to imagine a less appropriate assignment.
---------------------------------------------------------------------------
    \5\ U.S. Department of Homeland Security. National Response Plan. 
Washington: 2004.

         Reforming National Emergency Preparedness and Response

    Mr. Chairman, this Committee has recognized these failures and has 
taken important steps to correct them in the legislation at hand. The 
National Emergency Management Reform and Enhancement Act would 
implement a number of important changes at the Department of Homeland 
Security, and would provide the necessary framework to improve the 
National Incident Management System and the National Response Plan.
    First and foremost, the Act provides the Department of Homeland 
Security, and FEMA, with a fresh start. You do what should have been 
done four years ago when the Department was first created--you ignore 
the old ``pieces of the puzzle'' to create an entirely new entity--the 
Directorate of Emergency Management. By eliminating old boundaries and 
establishing a new directorate, complete with new names, structures, 
and relationships, from scratch, we believe you will eliminate many of 
the problems that have plagued the Department since its inception.
    One of the biggest flaws with the Department's Second Stage Review 
initiative was the separation of FEMA's preparedness and response 
activities. It makes little sense to have one federal agency work with 
local communities to develop response plans, and then have different 
federal agencies implement those plans. By reuniting Emergency 
Preparedness and Emergency Response under the Directorate of Emergency 
Management, you are helping ensure that future emergency response 
efforts are in sync with today's preparedness efforts.
    The Act also restores strong leadership to FEMA by ensuring that 
the Undersecretary of Emergency Management has demonstrable experience, 
and knowledge of emergency management. Undersecretary-nominee David 
Paulison is a great example of the sort of leader the Committee has 
envisoned; as a former IAFF member and fire chief, Paulison has the 
necessary experience and knowledge to spearhead the federal 
government's emergency response efforts. We also agree with the 
Committee that the Undersecretary should be given direct access to the 
President during disasters, ensuring that he or she is not encumbered 
by bureaucracy when faced with a snap decision.
    We are also extremely pleased that the Act applies an all-hazards 
approach to emergency preparedness and response. Entirely too much time 
and effort has been spent on a misguided attempt to differentiate 
between natural versus man-made disasters. Whether a building collapse 
is caused by an earthquake or terrorist bomb, the response efforts are 
the same. Whether a terrorist deliberately releases a toxic chemical 
into the air or that same chemical is released because a train 
accidentally derails makes little difference to those working to 
mitigate the dangers. None of us knows what the next disaster will look 
like. By recognizing this fact, the federal government will be better 
prepared to respond to whatever test next faces our nation.
    There remains, however, one significant omission in the current 
draft of the legislation. Government's paramount mission when disaster 
strikes is to save lives and protect the public safety. Yet, the 
current federal emergency response system fails to adequately utilize 
the single most valuable resource we have: our nation's emergency 
response personnel.
    To be sure, fire fighters and other responders already respond in a 
massive way to disasters, but they do so largely outside the scope of 
the federal government. Fire fighters are officially deployed under an 
interstate compact and various mutual aid agreements, and unofficially 
deployed based on nothing more than a personal desire to help.
    Although their impact on disaster response has been overwhelmingly 
positive, the arrival of fire fighters on the scene has often been 
chaotic and less than 100% effective. There are several reasons for 
this.
    First and foremost, too many well meaning fire fighters self-
dispatch, not waiting to be mobilized as part of an official call-up. 
Second, the qualifications of fire fighters vary widely. Just because a 
person calls himself or herself a fire fighter does not always mean 
they are capable of doing what fire fighters should be able to do. 
Universally accepted standards for fire fighter training are widely 
ignored, and there is currently no way to credential those who do have 
adequate training and experience. This uncertainty prevents on-scene 
incident commanders from being able to make appropriate use of their 
most valuable resources. Finally, as noted above, there is little 
coordination between EMAC, which deploys fire fighters, and FEMA, which 
reimburses communities for the costs incurred.
    The solution is to amend the National Response Plan to make full 
use of everything that local fire fighters can provide. The NRP should 
be amended to establish a fire fighter credentialing system (a project 
already well underway at the U.S. Fire Administration), and a more 
effective and efficient deployment model.
    There simply is no reason why the federal government cannot provide 
incident commanders with a group of highly trained and equipped fire 
fighters in a timely fashion. Making this one change would do more to 
protect our fellow citizens than anything else we can recommend. I am 
pleased to note, Mr. Chairman, that we have been working with your 
extraordinary staff in recent days on language to achieve this goal, 
and I thank you for your support of these efforts.
    The challenges in implementing these changes to the Department and 
to our emergency response system are not insignificant. This Committee 
has set high standards for the new Directorate of Emergency Management, 
which we very much appreciate. Although it is a large undertaking, the 
IAFF has every confidence that, with the right leadership, 
restructuring our nation's emergency response system can, and will, 
succeed. Your bill is a great start.

                        Additional Improvements

    I would be remiss if I didn't mention a few additional sections of 
the bill that we believe will benefit emergency response.
    The National Advisory Council on Emergency Management will provide 
the Emergency Management Directorate with expertise and assistance 
that, to date, has been largely missing. The nation's fire fighters are 
looking forward to working within this structure to enhance NIMS and 
the NRP.
    We believe the National Integration Center (NIC) will play an 
invaluable role in improving federal disaster response efforts. As a 
focal point for both NIMS and the NRP, NIC should be able to address 
the coordination and integration problems that have plagued emergency 
response efforts in the past. We add a word of caution that the 
responsibilities given to this agency are both critical and very broad, 
and we urge the Committee to assure that NIC will have the necessary 
resources and leadership for this massive undertaking.
    We have been less than impressed by DHS efforts to date to define 
the essential capabilities of emergency response providers, and we 
commend you for including in your proposal a requirement that these 
capabilities be revised and updated.
    Authorizing the Regional Offices will preserve one of the best 
things about the old FEMA. These offices will ensure better 
coordination between the Directorate, state and local governments, and 
local emergency response providers.
    We are especially appreciative of the language in the bill 
authorizing medical monitoring programs following disasters. This 
language will allow for the early detection and treatment of potential 
health issues in first responders, and lead to new ways to protect fire 
fighters and prevent harmful exposures from future disasters. The 
successful World Trade Center Medical Monitoring program, which 
evaluated almost 12,000 individuals after 9-11, found respiratory 
problems among emergency responders that would not have been otherwise 
detected. We believe similar efforts as part of any response to future 
disasters would likewise provide vital information to those who rush 
directly into harm's way.
    There is one area of concern that I wish to note. Section 522 of 
the Act authorizes the National Domestic Preparedness Consortium, and 
names five specific institutions as its members. While these 
institutions do a good job training state and local first responders, 
we are concerned that naming them in law would limit the Consortium's 
membership. There may be institutions around the country that would be 
just as effective, if not more effective, than the institutions 
currently named in the Act, and there may come a time when DHS wishes 
to expand or change membership in the consortium. In Congressman 
Reichert's district, for example, the Department of Energy's Hazardous 
Materials Management and Emergency Response (HAMMER) training center 
provides one of the best hazmat/WMD training programs in the country.
    My own organization's WMD training program is another case in 
point. The IAFF's training program is the most cost effective and 
successful WMD training provided to fire fighters. Using a cadre of 
instructors who are both certified fire service instructors and 
certified hazmat responders, we offer real-world training that few 
institutions can match. And because we send instructors into local 
communities and use local resources, we have a far lower per pupil cost 
than any fixed site training facility. We have been providing this 
training with federal support since the inception of this federal 
program--before there was a DHS--yet we are not currently designated as 
a member of the Consortium. We respectfully request that if you do 
decide to name specific institutions in law, you consider adding 
exceptional institutions and programs such as HAMMER and the IAFF.

                     Conclusion: A Great First Step

    The National Emergency Management Reform and Enhancement Act takes 
great strides towards improving the manner by which our nation prepares 
for, and responds to, natural and man-made disasters. We appreciate 
this Committee's willingness to incorporate many of the recommendations 
of the IAFF and other responder organizations, and we applaud the fact 
that you have worked in a bipartisan manner to produce this 
legislation.
    Mr. Chairman, our nation's fire fighters have never hesitated to 
put themselves in harm's way to protect our nation and its citizens, 
and we are at the ready to respond to the next disaster, no matter what 
form it takes. But our nation's first responders can't do it alone. 
Congress must now act to help the fire service more effectively respond 
to future disasters, and to that end, the National Emergency Management 
Reform and Enhancement Act serves as a great first step.
    This concludes my testimony. Thank you for your interest and 
attention. I am, of course, happy to answer any questions you may have.

    Mr. Reichert. Thank you for your testimony.
    Mr. Lenkart is recognized.

    STATEMENT OF STEVEN V. LENKART, DIRECTOR OF LEGISLATIVE 
     AFFAIRS, INTERNATIONAL BROTHERHOOD OF POLICE OFFICERS

    Mr. Lenkart. Thank you, Mr. Chairman, Ranking Member 
Pascrell and members of the committee. I am Steve Lenkart, 
Director of Legislative Affairs for the International 
Brotherhood of Police Officers. My comments this afternoon are 
also shared by three other national police organizations, the 
Major Cities Chiefs, the National Troopers Coalition, and the 
National Association of Black Law Enforcement Executives. All 
four of these organizations are members of the Law Enforcement 
Steering Committee, currently in its 21st year of operation on 
Capitol Hill. I have had the honor of serving as chairman of 
that committee since January of 2004.
    Mr. Chairman, the last time I appeared before this 
committee was in September of 2004 when I testified on the 
necessity of the complete integration of law enforcement 
functions into the National Incident Management System. Much 
has happened since that time. I was concerned back then, as 
many of my colleagues were also, that the United States didn't 
have solid procedures in place to handle large-scale incidents 
efficiently, be it a natural disaster or human induced. To the 
credit of this committee, you had the same concerns and, as a 
result, stepped forward to redefine how America prepares and 
responds to its threats and disasters.
    Over the past few years, this committee demonstrated how 
solid policy ideas can trump politics, and for that I commend 
all of you. In addition, because these policy ideas are written 
with regard to their practical application to the real world 
and not how they appear on paper in Congress, these ideas 
garnered a tremendous amount of support from law enforcement 
and other first responder communities.
    This committee is again seeking the lead in public safety 
and emergency response by putting forth the idea of 
consolidating the operations of FEMA with the responsibilities 
of a Directorate of Emergency Preparedness under DHS, combining 
them to create a new Directorate of Emergency Management. What 
is important to note is that the idea to create a new 
directorate was developed after extensive outreach and 
discussion with every conceivable stakeholder in national 
preparedness and response. As a result, the legislative 
language that this committee has constructed embraces the most 
important element vital to the success of any emergency 
management operation, and that is the relationship between 
preparedness and response.
    For some reason, the relationship between preparedness and 
response is viewed by many as a tug-of-war. Is our priority to 
invest in preparedness and prevention, or is our priority to 
invest in responding quickly and recovering completely? Mr. 
Chairman, that is like asking, which comes first, the chicken 
or the egg? The answer is very simple: It doesn't matter, 
because one can't exist without the other. You cannot be 
prepared without the means for a proper response, and you 
cannot respond properly without being prepared.
    The bill's language incorporates this concept by moving 
these two pillars of emergency management under one roof, a 
move that is long overdue. Then the language takes this concept 
further by elevating emergency management within DHS by 
establishing a legally qualified under secretary to oversee the 
directorate and establishing two qualified deputy under 
secretaries as the chiefs of preparedness and response. In 
addition, the under secretary is given a direct line of 
communication to the President during incidents of national 
significance, and, thus, a clear chain of command is instantly 
established.
    I would like to take a moment to explain why these changes 
within the senior management structure are so critical. By now, 
most people are very familiar with the results of our response 
to Hurricane Katrina. Hurricane Katrina was an unmitigated 
disaster by any definition and devastated a large region of the 
country. We spent a lot of time and energy in trying to figure 
out who failed and how, which resulted in a great deal of 
finger pointing.
    None of that finger pointing would have been necessary if 
an efficient, well-polished and practiced plan had been in 
effect. The breakdown in the chain of command could have been 
pinpointed and not lost to the ambiguities of who had what 
authority and responsibility and who didn't. The loss of chain 
of command was the key to a total systematic failure of rescue 
and recovery operations after Katrina hit, which exposed gaping 
holes in our Nation's response.
    I want to point out that while a systematic failure 
occurred, some elements of emergency response continued to 
operate, such as the Coast Guard, certain State agencies and 
many localized first-responder efforts. These efforts were 
forced to run independently, but they were able to do so 
because they had the flexibility to operate under extreme 
circumstances. They had this flexibility because these smaller 
components had within them two core components of emergency 
management: accountability and procedure.
    Accountability and procedure within emergency management 
allows all entities involved to adjust to contingencies 
quickly, move resources in a timely manner and to continue with 
the overall mission, which is to preserve life and begin 
immediately on the road to recovery. By placing preparedness 
and response under one under secretary and placing the 
responsibilities of each under two chief deputies, we are 
closing the infinite loop of accountability and procedure for 
emergency management.
    Perhaps there is no message of greater importance that I 
can provide here today than the significance of continuity in 
accountability and procedure during emergency management 
operations. The simple equation of bringing preparedness and 
response within distance of each other under one department can 
revolutionize how we respond to emergency situations. It can 
decrease uncertainty along the chain of command and can 
strengthen our abilities to react quickly to other emergencies 
that often arise from the original incident, such as the levee 
breaks in New Orleans after the hurricane struck.
    In addition to these vital structural changes within the 
Federal Government, draft language also extends to State and 
local jurisdictions the opportunity to become better prepared 
and integrated into a much larger system. This integration is 
lacking in many areas of the country. And while certain 
improvements have been made in recent years, we still have a 
long way to go before we can consider ourselves prepared.
    This addition of crucial resources is provided under a 
design of programs constructed to provide guidance and 
assistance where it is needed and to ensure our communities 
take the proper steps to ready themselves without the Federal 
Government taking charge at the local level. The programs and 
offices are too numerous to mention in my comments today. 
However, I would like to emphasize a few of them.
    The establishment of regional emergency management offices 
with mandated staff training to more effectively coordinate and 
integrate local efforts, including inventory and use of private 
sector resources; the establishment of an emergency management 
advisory council, composed of national and local specialists to 
ensure representation at all levels and in all areas of concern 
to the Secretary, including an assessment of essential 
capabilities; several offices to assist with grants, planning, 
training and education; the establishment of an office for 
emergency communications to take further the mission of 
interoperability, as supported by leading communications 
organizations, such as the Association of Public Safety 
Communications Officials International; and last but certainly 
not least, proactive additional safeguards against waste, fraud 
and abuse.
    Mr. Chairman, it has been my experience that this committee 
is resolved to finding solutions to very tough questions and is 
also careful to avoid the addition of unnecessary bureaucracy 
while seeking a remedy. When you ask the right questions of the 
right people, you get the right answers. This is why the 
actions of your committee, including the issues discussed 
today, are so widely supported by law enforcement and other 
first responders.
    I appreciate the great burden this committee has accepted 
on behalf of the American people, and on behalf of the 
International Brotherhood of Police Officers and my law 
colleagues in the national law enforcement community, we look 
forward to continuing our work with you and to further prepare 
our country for any crisis. Thank you.
    [The statement of Mr. Lenkart follows:]

                Prepared Statement of Steven V. Lenkart

    Good afternoon, Chairman King, Ranking Member Thompson and Members 
of the Committee.
    I'm Steve Lenkart, Director of Legislative Affairs for the 
International Brotherhood of Police Officers, representing federal, 
state and local police officers from around the country. Before coming 
to Washington, I served for 14 years as a police officer, firefighter 
and emergency medical technician in and around the city of Chicago.
    My comments this afternoon are also shared by the Major Cities 
Chiefs, an organization that represents police executives from more 
than 150 major metropolitan areas; by the National Troopers Coalition, 
an organization representing 30,000 state trooper and highway patrol 
officers throughout the nation; and by the National Organization of 
Black Law Enforcement Executives, representing executive and command 
officers from all levels within the law enforcement community.
    All four of these organizations are members of the Law Enforcement 
Steering Committee, currently in its 21st year of operation on Capitol 
Hill. I have had the honor of serving as its chairman since January of 
2004.
    Mr. Chairman, the last time I appeared before this committee was in 
September of 2004 when I testified before the Subcommittee on Emergency 
Preparedness and Response on the necessity of complete integration of 
law enforcement functions into the National Incident Management System.
    Much has happened since that time. I was concerned back then, as 
many of my colleagues were also, that the United States didn't have 
solid procedures in place to handle a large-scale incident efficiently, 
be it a natural disaster or human-induced. To the credit of this 
committee, you had the same concerns and as a result, stepped forward 
to redefine how America prepares and responds to its threats and 
disasters. Over the past few years, this committee has demonstrated how 
solid policy ideas can trump politics, and for that I commend all of 
you. In addition, because these policy ideas are written with regard to 
their practical application to the real world, and not how they appear 
on paper in Congress, these ideas garner a tremendous amount of support 
from the law enforcement and other first responder communities.

I. The Department of Homeland Security, FEMA, and National Preparedness 
                             and Response.

    This committee is again taking the lead in public safety and 
emergency response by putting forth the idea of consolidating the 
operations of the Federal Emergency Management Agency (FEMA) with the 
responsibilities of the Directorate of Emergency Preparedness under the 
U.S. Department of Homeland Security (DHS), combining them to create a 
new Directorate of Emergency Management. It is important to note that 
the idea to create a new directorate was developed after extensive 
outreach and discussions with every conceivable stakeholder in national 
preparedness and response.
    As a result, the draft language that the committee has constructed 
embraces the most important element vital to the success of any 
emergency management operation: the relationship between preparedness 
and response. For some reason, the relationship between preparedness 
and response is viewed by many as a tug of war: Is our priority to 
invest in preparedness and prevention, or is our priority to invest in 
responding quickly and recovering completely?
    Mr. Chairman, that's like asking: Which should come first, the 
chicken or the egg? The answer is simple: It doesn't matter because one 
can't exist without the other.
    You cannot be prepared without the means for a proper response, and 
you cannot respond properly without being prepared.
    The draft language incorporates this concept by moving these two 
pillars of emergency management under one roof, a move that is long 
overdue. Then the language takes this concept further by elevating 
emergency management within DHS by establishing a legally-qualified 
undersecretary to oversee the directorate, and establishing two 
qualified deputy undersecretaries as the chiefs of preparedness and 
response.
    In addition, the Undersecretary is given a direct line of 
communication to the president during Incidents of National 
Significance, and thus, a clear chain of command is instantly 
established. I'd like to take a moment to explain why these changes 
within the senior management structure are so critical.

          II. The Importance of Accountability and Procedure.

    By now, most people are very familiar with the results of our 
response to Hurricane Katrina. Hurricane Katrina was an unmitigated 
disaster by any definition and devastated a large region of the 
country. We've spent a lot of time and energy in trying to figure out 
who failed and how, which has resulted in a great deal of finger 
pointing. None of that excessive finger pointing would have been 
necessary if an efficient, well-polished and practiced plan had been in 
effect. The breakdown in the chain of command could have been pin-
pointed and not lost in the ambiguities of who had what authority and 
responsibility, and who didn't.
    The loss of chain of command was the key to a total systematic 
failure of rescue and recovery operations after Katrina hit which 
exposed gaping holes in our nation's response. I want to point out that 
while a systematic failure occurred, some elements of emergency 
response continued to operate, such as the Coast Guard, certain state 
agencies, and many localized first responder efforts. These efforts 
were forced to run independently but they were able to do so because 
they had the flexibility to operate under extreme circumstances. They 
had this flexibility because these smaller operations had within them 
two core components of emergency management: Accountability and 
Procedure.
    Accountability and procedure within emergency management allows all 
entities involved to adjust to contingencies quickly, move resources in 
a timely manner, and to continue with the overall mission which is to 
preserve life and begin immediately on the road to recovery.
    By placing preparedness and response under one Undersecretary, and 
by placing the responsibility for each under two chief deputies, we are 
closing the infinite loop of accountability and procedure for emergency 
management. Perhaps there is no message of greater importance that I 
can provide than the significance of continuity in accountability and 
procedure during emergency operations.
    This simple equation of bring preparedness and response within 
working distance of each other under one department can revolutionize 
how we respond to emergency situations, can decrease uncertainty along 
the chain of command and can strengthen our ability to react quickly to 
other emergencies that often arise from the original incident, such as 
the levy breaks in New Orleans after the hurricane struck.

           III. The Benefit to States and Local Communities.

    In addition to these vital structural changes within the federal 
government, the draft language also extends to state and local 
jurisdictions the opportunity to become better prepared and integrated 
into a much larger system. This integration is lacking in many areas of 
the country and while certain improvements were made in recent years, 
we still have a long way to go before we can consider ourselves 
properly prepared. This addition of crucial resources is provided under 
a design of programs constructed to provide guidance and assistance 
where it is needed, and to ensure our communities take the proper steps 
to ready themselves without the federal government taking charge at the 
local level.

    The different programs and offices are too numerous to mention in 
my comments today, however I would like to emphasize a few of them:
        <bullet> The establishment of regional emergency management 
        offices with mandated staff training to more effectively 
        coordinate and integrate local efforts, including inventory and 
        use of private sector resources;
        <bullet> The establishment of an Emergency Management Advisory 
        Council composed of national and local specialists to ensure 
        representation at all levels and all areas of concern to the 
        Secretary, including an assessment of essential capabilities;
        <bullet> Several offices to assist with grants, planning, 
        training and education;
        <bullet> The establishment of an office for emergency 
        communications to take further the mission of interoperability 
        as supported by leading communications organizations such as 
        the Association of Public-Safety Communications Officials 
        International; and
        <bullet> Proactive, additional safeguards against waste, fraud 
        and abuse.
    Mr. Chairman, it has been my experience that this committee is 
resolved to finding solutions to very tough questions, and is careful 
to avoid the addition of unnecessary bureaucracy while seeking remedy. 
When you ask the right questions to the right people, you get the right 
answers. This is why the actions of your committee, including the 
issues discussed today, are so widely supported by law enforcement and 
other first responders. I appreciate the great burden that this 
committee has accepted on behalf of the American people, and on behalf 
of the International Brotherhood of Police Officers and my colleagues 
in the national law enforcement community, we look forward to 
continuing our work with you to further prepare our country for any 
crisis.
    Thank you.

    Mr. Reichert. Thank you so much for your testimony.
    The chair recognizes Mr. Holdeman.

   STATEMENT OF ERIC HOLDEMAN, DIRECTOR, OFFICE OF EMERGENCY 
          MANAGEMENT KING COUNTY, STATE OF WASHINGTON

    Mr. Holdeman. Mr. Chairman and other members, for the 
record, I am Eric Holdeman, Director for the King County Office 
of Emergency Management, and thank you for the opportunity to 
appear before you today.
    I would like to say that remarks were made about Katrina 
being an embarrassment for you. It is an embarrassment for 
every emergency manager at every level of government, and I am 
pleased to see someone and organizations working to fix that.
    I would like to express my overall support for this bill, 
and while there are many provisions in the legislation, there 
are four that are critically important to improving our 
Nation's collective ability to respond. The first of that is 
combining once again the function of emergency preparedness 
with that of disaster response and recovery; secondly, 
establishing homeland security regional offices; thirdly, 
supporting an all-hazards approach to funding emergency 
management and disaster preparedness; and lastly, retaining the 
name of FEMA as defining the Federal Emergency Management 
Agency for the Nation.
    First of all, there is the reuniting of emergency 
preparedness with disaster response and recovery into the same 
organization. Disaster preparedness is the foundation for 
disaster response. What you do to prepare for disasters by 
planning, training and exercising will set the tone for your 
capability to respond collectively when disasters do strike.
    We have seen what the impact was of taking disaster 
preparedness away from FEMA. While it was not made official 
until the fall of 2005, in essence, FEMA has not had an 
emergency preparedness function for the last 5 years. Having 
both functions placed under the control of the Under Secretary 
for Emergency Management will measurably strengthen our 
disaster response capabilities. This is one of those times 
where the placement of an agency on the organizational chart 
does make a significant difference.
    Secondly, I have been saying for a long time that the one 
single step the Federal Government can do to quickly improve 
the Nation's ability to respond to disasters is to establish 
homeland security regional offices. Without these offices, 
there has been no one, and that is no one, to coordinate the 
multiple Federal agency regional efforts in disaster 
preparedness, and no one in the regions of this Nation to work 
with State emergency management offices or, like in my case, 
major metropolitan areas.
    Without FEMA regional offices being empowered to perform 
this function--and FEMA region ten is only 20 miles from my 
office--our ability to interact with a coordinated Federal 
agency effort has been eliminated. This legislation would fix 
that issue and provides for regional offices dedicated to the 
effort of coordinating and facilitating our Federal, State and 
local efforts in preparing for disasters and providing for a 
more effective response when disasters do strike.
    Thirdly, taking an all-hazards approach to disaster 
preparedness has proven over time to be the best way to 
maximize scarce financial resources and minimize risk to 
regions by being prepared for a broad spectrum of disasters. 
This legislation, in many places, uses language such as 
terrorism, natural hazards and other emergencies. The Senate 
recently recommended taking an all-hazards-plus approach to 
emergency management.
    The one thing I can tell you, and the one thing that still 
needs to be fixed in the bill, in section 521, the Office of 
Grants and Planning, is there is no reference to natural 
hazards or all hazards in that. I understand that may be an 
oversight, and so I would strongly recommend in the markup 
phase for this that you correct it. Because without correcting 
it, as we have been told previously by the Department of 
Homeland Security, the money can only be spent on terrorism. 
That is the direction we have been given by Congress.
    And retaining the name of FEMA. I recognize there are some 
calling recently, again by the U.S. Senate, to do away with the 
FEMA name and establish a new organization to replace it. Well, 
this is not a rebranding issue. There is no replacing the 
functions of FEMA. They must continue if we are once again to 
have an effective Federal disaster agency.
    If you recall years ago, when the Chrysler Corporation had 
a problem and was on the financial ropes, Lee Iacocca did not 
come in and say, we're going to fix the problem at Chrysler by 
changing the name. No, he fixed the problem by rolling out 
improved products in the form of better automobiles. We need to 
fix the FEMA product, not the FEMA name.
    Lastly, I call on my peers in State and local emergency 
management offices across this great land to get behind this 
good bill. As stated before, it is not perfect, but we need 
something now. Don't let an attempt to try to come up with a 
perfect piece of legislation become the enemy of doing 
something good. Implementing this legislation will not change 
things overnight, but the sooner we reunite disaster 
preparedness and response, establish regional homeland security 
offices, fund an all-hazards approach to disaster preparedness, 
and decide to keep the FEMA name, the sooner we will be on a 
path to a more disaster-resilient America.
    While I have additional recommendations for this 
legislation, you can read them in my attached written 
testimony. Thank you for this opportunity to testify, and I 
look forward to any questions that you might have.
    [The statement of Mr. Holdeman follows:]

                 Prepared Statement of Eric E. Holdeman

    Mr. Chairman and other members, for the record I am Eric Holdeman, 
Director for the King County Office of Emergency Management. A position 
that I've held for the past ten years. Prior to working for King County 
I worked for Washington State Emergency Management for five years in a 
variety of supervisory positions, that included disaster response 
operations, planning, training, exercises, and public education. 
Previous to this I completed a 20 year military career as an infantry 
officer. My experience in the military included four years working as 
Chief of Operations and Chief of Contingency Planning for the then 
Fourth U.S. Army. These duties included working on plans such as 
Continuity of Government (COOP) for the National Command Authorities, 
Military Support for Civil Defense and Military Support to Civil 
Authorities. This responsibility was for a seven state area in the Mid-
west, and included extensive coordination with FEMA Region V, 
headquartered in Chicago.
    I would like to express my overall support for this bill. While 
there are many provisions in the legislation there are three that are 
critically important to improving our nation's collective ability to 
respond.
        <bullet> Combining, once again, the function of emergency 
        preparedness with that of disaster response and recovery.
        <bullet> Establishing Homeland Security Regional Offices
        <bullet> Retaining the name of FEMA as defining the Federal 
        emergency management agency for the nation.
    First of all there is the reuniting of emergency preparedness, with 
disaster response and recovery into the same organization.
    Disaster Preparedness is the foundation for disaster response. What 
you do to prepare for disasters by planning, training and exercising 
will set the tone for your capability to respond collectively when 
disasters do strike.
    We have seen what the impact was of taking disaster preparedness 
away from FEMA. While it was not made official until the Fall of 2005, 
in essence FEMA has not had the emergency preparedness function for the 
last five years. Having both functions placed under the control of the 
Under Secretary for Emergency Management will measurably strengthen our 
disaster response capabilities. This is one of those times where the 
placement of the agency on the organization chart does make a 
significant difference.
    Secondly, I have been saying for a long time that the one single 
step that the Federal government can do to quickly improve the nation's 
ability to respond to disasters is to establish Homeland Security 
Regional Offices. Without these offices there has been ``No One, that 
is No One'' to coordinate multiple Federal agency regional efforts in 
disaster preparedness, and no one in the regions of this nation to work 
with State Emergency Management Offices, or like in my case major 
metropolitan areas. Without FEMA Regional Offices being empowered to 
perform this function (FEMA Region X is only 20 miles from my office) 
our ability to interact with a coordinated Federal agency effort has 
been eliminated. This legislation fixes that issue and provides for 
regional offices dedicated to the effort of coordinating and 
facilitating our Federal, State and Local efforts in preparing for 
disasters, and providing for a more effective response when disasters 
do strike.
    And, retaining the name of FEMA. I recognize that there have been 
calls, most recently by the U.S. Senate, to do away with the FEMA name 
and establish a new organization to replace it. Well, there is no 
replacing the functions of FEMA, they must continue if we are to once 
again have an effective Federal disaster agency. If you recall years 
ago when the Chrysler Corporation had a problem and was on the 
financial ropes. Lee Iacoca did not come in and say we are going to fix 
the problem at Chrysler by changing our name. No, he fixed the problem 
by rolling out improved products in the form of better automobiles. We 
need to fix the FEMA product, not the FEMA name. If the FEMA name is 
done away with, we will end up like the entertainer Prince, who changed 
his name to a symbol. Everyone referred to him as ``Formerly known as 
Prince.'' I can see that repeated in the future if we do away with the 
FEMA name. Whatever the new name is we'll end up saying, ``You know, 
what use to be FEMA.''
        <bullet> Lastly, I call on my peers in State and Local 
        Emergency Management Offices across this great land to get 
        behind this bill. As I stated before, it is not perfect, but we 
        need something now. Don't let an attempt at coming up with a 
        perfect piece of legislation become the enemy of something 
        good. Implementing this legislation will not change things over 
        night. But, the sooner we reunite disaster preparedness and 
        response, and establish Regional Homeland Security Offices, and 
        decide to keep the FEMA name, the sooner we will be on a path 
        to a more disaster resilient America.
    Thank you for this opportunity to testify, and I look forward to 
any questions that you might have.

    Mr. Reichert. Thank you, Mr. Holdeman.
    I thank the panel. I have a few questions, and then we will 
allow other members to ask questions regarding your testimony.
    We have done a lot of work over the past several months. We 
have had multiple hearings and heard hundreds of hours of 
testimony and the testimony and evaluated the responses to 
questions that the full committee and subcommittees have asked 
witnesses regarding incident command, command and control, 
communication, interoperability, operability, structure of 
FEMA, FEMA inside DHS, and FEMA outside DHS. All those 
discussions have taken place.
    This legislation that we are talking about, all of you have 
had a chance to review; am I correct?
    [Witnesses nodded affirmatively.]
    Mr. Reichert. And have you had chance to have some input 
into the language of this legislation?
    [Witnesses nodded affirmatively.]
    Mr. Reichert. With respect to FEMA, the Reichert-McCaul-
Pascrell-Etheridge legislation will, among other things, create 
an office of emergency communications. One of the huge problems 
that we faced as first responders across this country and as 
emergency managers is our inability to communicate with each 
other, and we saw that as a big failure in the Katrina 
disaster.
    It also restores the nexus between preparedness and 
response, as has been stated in some of the testimony, 
consolidating FEMA and the Directorate for Preparedness. It 
elevates the Director of FEMA to an under secretary position 
and gives that person the authority to communicate directly 
with the President in times of emergency, and it does a number 
of other things, as has been mentioned.
    I have a question. With all those things that you know of 
in the bill that you have had a chance to review, will these 
proposed reforms, if enacted, improve the deficiencies in 
FEMA's structure and leadership, as identified by the numerous 
investigations into Hurricane Katrina?
    And that is to anyone on the panel who chooses. Do you 
think this will help us improve our response and our 
preparedness?
    Mr. Lenkart. Mr. Chairman, I don't see how they can't. You 
are taking quite a bureaucracy that is in bits and pieces right 
now, and you are putting them under one chief and supplying him 
with a couple of deputies. As I said in my testimony, the chain 
of command is everything in this kind of business.
    When we have not only separated response and preparedness, 
it has been under two different bosses, we have come up with a 
lot of problems. And when things do go bad, when the chips are 
down, there is a lot of finger pointing and people saying, that 
wasn't me, it was you, and so forth. By consolidating it under 
ultimately one person who is in charge, with direct lines to 
the President, I don't see how this can't be more efficient. I 
just don't see how there won't be more accountability within 
the upper levels of the government.
    Mr. Reichert. Thank you. Other responses?
    Dr. Jenkins, do you have a response.
    Mr. Jenkins. Definitely it has a number of things in it 
that we think are important and will be helpful, without 
question. I agree with everybody at the table, it is very 
important to bring preparedness and response together again, as 
this does, under a single organization, a single 
responsibility.
    It has provisions on interoperability that seem elementary 
to us, and I don't mean that in a pejorative term. It is sort 
of silly that they haven't been done already. One of those is 
the national inventory of communication frequencies and kind of 
equipment that is used across the country. That is something 
that seems like a no-brainer and something we recommended in 
2004.
    We like the fact that it also includes some of the report, 
in particular the annual report on the status of the Nation's 
response and capabilities. I think one of the issues that has 
been a frustration to us is being able to figure out what is 
actually being accomplished with the grant money, and there is 
no particular requirement as to what performance enhancements, 
if you will, have you gotten with the grant money.
    So there are a whole number of provisions we think will 
definitely improve the situation.
    Mr. Reichert. Thank you.
    What are the potential benefits of strengthening FEMA but 
leaving it in the Department of Homeland Security?
    Mr. Holdeman.
    Mr. Holdeman. If I can address that. I know there is 
division out there between organizations, individuals, about, 
should FEMA be a separate cabinet agency; to go back to what it 
was pre-9/11. But I don't think that you can reinvent the past 
and romanticize what once was, given we have a new era here in 
the 21st century.
    Creating a new FEMA does nothing to then address, how is 
FEMA and the Department of Homeland Security going to interact 
and interface together? Are we going to undo the National 
Response Plan, the National Incident Management System, which 
again had been excellent steps in the right direction?
    We have seen some States actually take and bifurcate 
emergency management and homeland security in separate offices 
within the same State. I think the experience has shown that 
that is not good for taking an all-hazards approach and will 
lead to more turf battles and interjurisdictional rivalry that 
this bill does not promote.
    Mr. Reichert. Thank you for your responses.
    The chair now recognizes the ranking member of the 
Subcommittee on Emergency Preparedness, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman. Just to put my 
questions into perspective, we seem to all be in agreement that 
we do believe in the reorganization bill that we have put 
before everybody right now; that this legislation strengthens 
FEMA by merging it with the preparedness directorate, so that 
the preparedness and response functions are again unified, 
which was a major problem with Katrina, a major problem with 
Rita. In fact, we have kind of neglected southeast Texas, which 
has very serious problems which we have not addressed.
    Secondly, we have decided to listen to those folks who are 
in the boots on the ground, so that this legislation, correct 
me if I'm wrong, is an attempt by this committee to have a 
bottom-up approach, so that it is not something we impose 
without really going to those people who deal with this on a 
day-to-day basis. Number two.
    And number three, I think you put it best, Dr. Jenkins, 
that because of FEMA's mission performance, you in your 
testimony said, during Hurricane Katrina, questions have been 
raised regarding the agency's organizational placement, 
including whether it should be disbanded and functions moved to 
other agencies to remain within DHS or again become an 
independent agency.
    With that as a kind of umbrella, I would like to ask some 
questions, Mr. Chairman.
    Mr. Kasinitz, we have worked very closely since I have been 
here for the 10 years on the issues facing our first 
responders, and many of those issues had been ignored. But 
thanks to all the men and women across the United States who 
made Congress aware of those issues, we have addressed them, or 
started to address them.
    In your testimony, you said that the department has spent 
entirely too much time and effort on a misguided attempt to 
differentiate between natural versus manmade disasters. A quick 
question, quick answer hopefully: Do you believe that this 
legislation recognizes an all-hazards approach to emergency 
preparedness and response so that we don't get caught up in the 
convoluted discussion about how did this catastrophe originate, 
be it manmade or natural?
    Mr. Kasinitz. Absolutely, Congressman. We are very pleased 
with the approach the legislation takes to make sure we don't 
make those sort of artificial distinctions, and it is moving 
very much in the right direction.
    I think there is somewhat of a subtext whenever we hear 
this FEMA-inside-DHS or FEMA-outside-DHS debate. Although it is 
not specifically articulated, I think some of that is also 
people who make that distinction. They say, well, FEMA should 
really be about natural disasters versus manmade disasters. So 
by keeping the emergency response directorate within DHS, I 
think you address that on multiple levels.
    Mr. Pascrell. How do you think this bill addresses the 
politics or the politicization of disasters that seems to be 
increasing as the years pass? How can we ensure that our first 
responders are being put to good use?
    You saw what happened during Katrina. You saw how a 
thousand fire fighters were left up in Atlanta, Georgia, 
waiting to be called into action, yet the folks down in the 
action area were given the job to hand out fliers. What is your 
response to that?
    Mr. Kasinitz. We think by creating a credentialing system 
and a deployment model, what you would have is you would 
address those issues on the front end. As part of your 
preparedness plans, you would indicate ahead of time how fire 
fighters are to be used when disaster strikes. And then when 
the disaster does come, you simply are putting the plan into 
place, so you are not going back to try to figure out what's 
the best place to plug in this group or that group in any 
particular function.
    Mr. Pascrell. Thank you. Mr. Jenkins, I have a question for 
you.
    In the GAO's preliminary observations regarding 
preparedness, response, recovery and Hurricane Katrina, one of 
the recommendations which was carried forward from the GAO 
review in the aftermath of Hurricane Andrew in 1992 was that a 
single individual directly responsible and accountable to the 
President should be designated to act as the central focal 
point to lead and coordinate the overall Federal response when 
a catastrophic disaster has happened or is imminent.
    Question: Does the elevation of the FEMA director to 
Cabinet status during an incident of national significance 
address this recommendation?
    Mr. Jenkins. Yes. In terms of what this bill represents, we 
do think that it does respond to the recommendation that we 
made and implements it.
    Mr. Pascrell. Does the fact that the FEMA director serves 
on a day-to-day basis as the principal adviser to the President 
affect your answer?
    Mr. Jenkins. No. I think it would affect our answer in one 
way, but the bill has also addressed that. We think one of the 
other recommendations that we made was that there be a 
statutory requirement for experience and skills for the FEMA 
director. And with that proviso, which we think is an important 
proviso in terms of that recommendation.
    Mr. Pascrell. Well, we are trying that now. We are trying 
that now, so we will see how it works.
    Thank you, Mr. Chairman.
    Mr. Reichert. The Chairman will now recognize other members 
for questions under the 5-minute rule. Members are advised that 
those who were present at the start of the hearing will be 
recognized in order of seniority on the committee. Those 
members coming in later will be recognized in order of their 
arrival.
    The chair now recognizes Mr. McCaul, chairman of the 
Subcommittee on Homeland Security Investigations.
    Mr. McCaul. Thank you, Mr. Chairman. I want to thank you 
for your leadership, and Ranking Members Pascrell and 
Etheridge. This is truly a bipartisan piece of legislation. We 
did get input from all the first responders and emergency 
managers. It has been a lot of work, and I think we have a good 
product here. I was proud to coauthor this legislation as well.
    I recently led a delegation, along with Ranking Member 
Etheridge and Bennie Thompson, to the Gulf, to Louisiana and 
Mississippi, and saw the devastation and, quite frankly, the 
inadequate response effort that exists today. In addition, my 
home State of Texas was directly impacted by Hurricane Rita and 
indirectly impacted by Hurricane Katrina through all the 
evacuations.
    I saw FEMA firsthand and saw a lot of problems, and I think 
this bill goes a long way to addressing some of those concerns. 
But I want to get comments on two main areas. The big debate on 
the Hill right now is whether we take FEMA out of DHS or leave 
it inside. My prior experience on counterterrorism 
investigations is that I think FEMA, if taken out and just 
focusing on natural disasters, would be a huge mistake.
    I believe that it should be an all-hazards approach, fully 
integrated with the Department of Homeland Security. I think 
giving the Under Secretary direct reporting to the President 
alleviates a lot of the concerns about the President's being 
able to weigh in and the interaction with the White House.
    But I want to get comments on that issue first, and then, 
number two, one of the biggest observations I had after Rita 
and Katrina was that the complaints coming to me in my office 
were that we don't even know who our FEMA person is; and, 
number two, they can't make decisions. They have to go through 
Washington.
    This bill basically sets up regional directors in a fashion 
where we mandate the Secretary to reallocate those resources, 
to fully integrate in a support role, not a parental role, in a 
support role with the State and locals so they are fully 
integrated at that level. And more importantly, it gives them 
or empowers them to make decisions on the ground without having 
to report to Washington.
    I think whether you're talking about a terrorist attack or 
a natural disaster, that kind of real-time response is 
critical. So I would throw that out to the panel, if you could 
comment on those two issues.
    Mr. Kasinitz. Congressman, we are very supportive of the 
regional offices. We certainly agree with you that that is a 
far more effective way to respond. Even in this age of 
instantaneous communication, you can't get people to respond to 
a disaster on line. There has to be people on the ground doing 
the work.
    What we have found with the regional offices is, certainly 
on the preparedness side, there have been tremendous advantages 
to building relationships. People know who their local FEMA 
person is, they work together, and that FEMA person brings 
together different emergency response professionals in the 
area. So when the unfortunate disaster does hit, these people 
already know each other, they already have relationships 
developed, and it makes for a far more effective response.
    Mr. Holdeman. If I may, whether the building is blown up or 
falls down from an earthquake, FEMA and emergency managers are 
going to be there helping coordinate what we call the 
consequence management. Both terrorism and, for us, earthquakes 
are come-as-you-are disasters. And the preparation that is 
needed for those types of events is not happening now. There is 
no one orchestrating the Federal agencies, and there is a lot 
of them out there in the regions, and there is no one 
integrating the Federal, State, and local response. So those 
regional offices are absolutely critical. That is the number 
one thing that we need.
    And separating FEMA out, giving it a different name, 
whatever, is just going to confuse everybody as much as 
renaming the entertainer Prince by a symbol. We all still refer 
to him as the entertainer formerly known as Prince. If you give 
FEMA a different name, we will call it, you know, what used to 
be FEMA.
    Mr. McCaul. If I can follow up on that. I think taking it 
out on the eve of hurricane season would be a disaster. It 
would lead to confusion. And not only that, but duplication 
within our government. I think you would have two organizations 
that would duplicate efforts, and it would not be cost-
effective for the taxpayers.
    Mr. Holdeman. Absolutely. It would be duplication and lead 
to additional turf wars. And if I could add on that, the turf 
wars exist everywhere, in my local jurisdiction, at the States 
and all that. But we also need Congress to work also on the 
issue of oversight and which committees have oversight, because 
that can cause as much confusion and trickle-down effect for 
the local and regional level.
    Mr. McCaul. Mr. Lenkart, do you have a comment?
    Mr. Lenkart. I would, sir. Thank you. Before 9/11, FEMA, to 
the police organizations and police officers and agencies, was 
nothing more than four letters. FEMA meant nothing to us.
    We have matured as a country. We have been through a lot. 
And to take a step back and isolate FEMA again to what it used 
to be would be isolating the law enforcement portion from our 
national response. Law enforcement is extremely important. 
Sometimes we rescue people; sometimes we chase bad guys; and 
sometimes we do both.
    To put us back out where we were before, segregating the 
efforts on the ground, I think would be a huge mistake.
    Mr. McCaul. Thank you, Mr. Chairman.
    Mr. Reichert. The chair now recognizes Mr. Dicks.
    Mr. Dicks. Thank you. I want to apologize. I had a bill on 
the Floor, so I had to run over--Congresswoman Donna 
Christensen was one of the managers of it--so I didn't hear all 
of your testimony. But I take it that nobody on the panel 
supports taking FEMA out of DHS; is that right?
    [Witnesses nodded affirmatively.]
    Mr. Dicks. You all favor having FEMA, but with regional 
offices; is that correct?
    [Witnesses nodded affirmatively.]
    Mr. Dicks. Do you think it is a mistake that the Department 
of Homeland Security doesn't have regional offices?
    By the way, I was on Senator Magnuson's staff during the 
Nixon administration.
    Mr. Lungren. How old are you?
    Mr. Dicks. Older than I look; okay?
    And the Nixon administration created regional offices. Now, 
the bottom line for me here is that we are searching for an 
answer. But the fact is, the reality is, this administration 
did not pay attention to this issue.
    Mr. Dicks. And put people in management positions who could 
not respond. There is no James Lee Witt down in that department 
like there was during the Clinton Administration. So I am glad 
to see that this committee, led my colleague from Washington 
State, is taking this seriously. But it is this administration 
that undermined FEMA and is responsible for what happened out 
there, in my judgment.
    But, all of you agree that it shouldn't be a separate 
office, I think we are going to have another committee of the 
House that may say that FEMA should be separated out.
    To me, it seems as if the key point is, we have got to put 
some people in charge of FEMA who are serious and get these 
regional offices functioning and start doing the exercises and 
the preparation for what could happen either in another 
hurricane. Or you could have the eruption of Mount St. Helens 
again in the State of Washington. We had some serious 
earthquakes from it. But it is just the fact that this was not 
the answer.
    Another thing that bothers me, too, is that a lot of 
changes that Mr. Chertoff made when he came in turned out to be 
very counterproductive. The efforts to create a strong FEMA 
were further undermined when, as part of this Second Stage 
Review, Secretary Chertoff split preparedness and response into 
separate directorates. Specifically, Secretary Chertoff 
abolished the EP&R directorate, made FEMA a separate 
operational response and recovery unit reporting directly to 
the Secretary, and transferred FEMA's remaining preparedness 
functions to the office of domestic preparedness. Could we have 
screwed it up any worse than that? All of you that have 
testified in favor of this legislation, do you believe this 
legislation is the right fix for the problem that we are 
facing, based on your experience out there?
    Mr. Reichert. Could one of you answer with the microphone 
so we could get a report?
    Mr. Dicks. I would love to hear from our colleague from 
Washington State.
    Mr. Holdeman. I am not Steve Bailey, but will talk for him 
today.
    What we have seen is a top-down approach, and if you want 
to increase disaster preparedness, it has to be this bottom-up 
approach. People, just like ourselves at the State, fire, 
police, emergency managers, along with their Federal and State 
counterparts have to be working together on a daily basis, know 
one another, have the relationships, and be empowered, like 
this legislation does, to solve the problem at the lowest 
level. You can't have direction and control coming from the 
beltway on every little issue. And that has been a huge issue, 
not just during disasters, but during our preparedness phase. 
And there is nobody to talk to out there.
    Mr. Dicks. I am pleased--and I want to ask the chairman 
about this--is it a fact now that the legislation does have 
provisions in there that deal with reprogramming? The 
reprogramming, the money that was taken away from FEMA by 
Secretary Chertoff is disgraceful. And we wouldn't allow the 
Department of Defense to do that; they have to come up to the 
Congress and get approval for any transfer of funding over $5 
million.
    Now, Mr. Chairman, do we have a provision like that in this 
bill?
    Mr. Reichert. Yes, sir, that is absolutely correct.
    Mr. Dicks. To me, the way they drained the resources from 
FEMA, now that shouldn't be a surprise that they couldn't 
respond because, one, you have lousy leadership, and two, you 
gave them the ability--Chertoff the ability to take the money 
away from the agency. I am surprised they got anything done at 
all.
    Mr. Reichert. Would the gentleman yield?
    Mr. Dicks. Yes, I will yield.
    Mr. Reichert. I want to go back to a question you asked, 
Mr. Dicks, to the panel that they didn't get a chance to answer 
on the record, and that is about a regional director for 
Homeland Security, I think that is an important point. And 
could someone address that question that Mr. Dicks posed, 
please? You all nodded your head.
    Mr. Jenkins. I would be happy to offer some observations. 
There were two things in the bill that I thought were 
important; one is that the regional directors themselves have 
to have some expertise. If they don't have expertise in 
emergency management response, they are not going to have 
credibility with local first responders. In other words, if 
they are going to build relationships, they have to be seen as 
having some credibility in knowing what they are doing. So I 
think that credentialing in the bill is a very important 
provision for the regional managers.
    Mr. Dicks. Did the regional manager in your bill, Mr. 
Chairman, have to have credentials?
    Mr. Reichert. Yes. There is language in the bill that 
addresses that issue.
    Mr. Dicks. Thank you, I appreciate your time.
    Mr. Jenkins. And I would say the second thing that is 
important is the importance of working with localities with the 
advisory council they have and so forth to be able to 
identify--and this is critical, they have to take this 
seriously--to identify key gaps in capabilities in their area 
and what that means in terms of the grants and priorities for 
the use of grants. One of the big problems, as I mentioned 
before, is we really don't know how these grants are being used 
with what affect, and that seems to be the second important--
one of the other features of the way the bill is written that 
is important in terms of the role of the regional director.
    Mr. Reichert. Thank you. The gentleman's time has expired, 
and the chair recognizes Mr. Lungren.
    Mr. Lungren. Thank you, Mr. Chairman.
    It is always fun to follow the stalwart defender of the 
Presidency of Richard Nixon; I appreciate that.
    Mr. Dicks. I said that all during the 2004 Democratic 
Convention, that I would give my right arm to have Richard 
Nixon back.
    Mr. Lungren. Oh, boy. I am not sure what I want to say. A 
one-armed Norm Dicks is quite something to think of.
    Mr. Reichert. Mr. Lungren, you have the floor.
    Mr. Lungren. I appreciate that.
    I heard the comments of the panelists, and I appreciate 
them. What I am trying to do is to figure out what lessons we 
learned from the Katrina experience that we are addressing in 
this bill. And let me go at it this way; when I was Attorney 
General of California and served with Governor Pete Wilson, we 
had fires. We had floods. We had mudslides. We had riots. I am 
sure there was something else we had. Maybe we had a plague of 
locusts. We had everything you could possibly think of, and we 
always managed to respond with a regional focus within the 
State. And when we needed help, we got the Federal Government 
to come in and help through FEMA at the time, and we didn't 
seem to have the problems that we saw in Katrina. Now you might 
say that Katrina wasn't as overwhelming--I don't know if I 
mentioned earthquakes. We had that, too, and they are pretty 
overwhelming for us. So I am trying to figure out, are we 
trying to go back to what FEMA was before it got put into 
Homeland Security? Are we trying to create a new animal in 
terms of your support for this? And what I mean by that is, I 
disagree with the idea of bringing FEMA out. For one thing, I 
think it would take us so much time to reorganize, to get 
people in a different spot that we would just waste that time. 
If we are going to reorganize, reorganize where they are.
    Mr. Dicks. Would the gentleman yield? I don't think they 
have moved. I think they are still right where they were.
    Mr. Lungren. But I am talking about bureaucratically in 
those lines and so forth. Is there some synergy that actually 
would be a positive with FEMA where it is. That is, that we 
have a department that is supposed to respond to natural 
disasters and manmade disasters, that even though they are 
different, there is some commonality in terms of response, in 
terms of cooperation, in terms of the attitude that is 
necessary to respond to that? Or are we just making an excuse 
to keep FEMA where it is and trying to improve it? In other 
words, is there a benefit that we might see to be derived from 
actually having FEMA in DHS? Not just shrugging our shoulders 
and saying that is where it is, we are going to try to make the 
best of it, but is there a positive that might be established 
by having within one department an all-hazards approach, 
whether it is manmade or natural disaster? I would ask all four 
of the panelists to please respond.
    Mr. Jenkins. Well, I think from our institutional 
perspective that they can be beneficial. It has certainly not 
been beneficial the way it was structured. From the very 
beginning, it was almost structured for failure with terrorism 
being in the Border and Transportation Security Directorate and 
everything else being in the Emergency Response Directorate, 
and then things gradually moved until the Border and 
Transportation Security Directorate had virtually everything 
and FEMA had very little. And so that structure is part of what 
led to the problem is that it was set up for failure from the 
beginning because of the way it was set up. Emergency response, 
all-hazards response was never set up in the department as a 
single organization to begin with when the Department of 
Homeland Security was created.
    So that it can be beneficial to have it in the department. 
To the extent to which you have an integrated coordinated 
approach and you do not have the kind of divided lines of 
responsibility that you had within the department, if you keep 
that, there is no benefit, really, to necessarily keeping FEMA 
within the department. So it depends upon very much from our 
perspective on the way you approach it. And it requires a very 
integrated approach that takes care of both terrorist and non-
terrorism incidents.
    Mr. Kasinitz. Congressman, certainly we think there are 
benefits from having response and preparedness together, which 
is the question if you pulled it out, how that would function, 
and certainty the all-hazards approach. But I think your 
question goes to an interesting point because you say, are we 
leaving it in just to leave it in? Well, we have to remember 
there didn't used to be a Department of Homeland Security, and 
now there is. So I think the function, the dynamic would be 
different to say, back when there was an independent FEMA 
versus where would it be, and now having an independent FEMA 
versus in the Department of Homeland Security. For example, 
FEMA did a very good job in responding to the Oklahoma City 
bombing, which was a terrorism event. Now my question would be, 
if that would happen today, if it was pulled out as an 
independent agency and we had an incident such as that today, 
would FEMA be able to respond because there would be a 
jurisdictional question of, is that FEMA or is that Department 
of Homeland Security? So I think the very existence of DHS 
changes the dynamic, not just going back to what it used to be
    Mr. Reichert. The gentleman's time has expired. We are 
going to try to hold members to 5 minutes so all members have 
an opportunity to ask questions.
    Mr. DeFazio is recognized.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Just in response to the last witness, there is no reason we 
couldn't give a mandate that says FEMA, an independent agency, 
Cabinet level office, whatever, has the responsibility to 
respond both to manmade and terrorist and non-natural and 
natural disasters. I think they did an admirable job not only 
with Oklahoma City. They did an admirable job on 9/11. But I 
would direct my question to Mr. Jenkins of GAO.
    Before the reorganization on 9/11, was there substantial 
criticism of FEMA's response to a terrorist incident initiated 
by foreign forces?
    Mr. Jenkins. No, not--but I would say one thing with regard 
to that, however. There certainly were some problems with the 
way that they responded to 9/11. I mean, just there were some 
issues that we reported on in terms of lack of coordination and 
that.
    Mr. DeFazio. But that was essentially under new management. 
They were a year into the new management at that point.
    Mr. Jenkins. Right.
    Mr. DeFazio. And were those management problems?
    Mr. Jenkins. Well, they were not part of the Department of 
Homeland Security at that point.
    Mr. DeFazio. No, but were they management problems, i.e. we 
already had a hack of a political appointee at that point; I 
believe his name was Mr. Albough.
    Mr. Jenkins. There were some management issues.
    Mr. DeFazio. Okay. Here is my problem with this grand 
reorganization here. As I count--and I will ask the 
professionals--do you think that this very serious response 
issue, potentially they will be involved in a pandemic, 
potentially they will be involved in another terrorist 
incident, they will certainly be involved in more natural 
disasters, should all of the top management be political 
appointees? Because as I look at this grand reorganization, 
because the problem has come from political appointments, or 
lack thereof, because as I understand it, aren't there quite a 
few vacancies, Mr. Jenkins, at fairly high levels of 
management?
    Mr. Jenkins. Right now FEMA is trying to hire and close 
those positions, but right now FEMA has 400 vacancies out of 
2,400 positions.
    Mr. DeFazio. Right. Dislodged career people because of the 
political hacks at the top. Now, under this reorganization, we 
are going to have eight people, one undersecretary, two deputy 
assistant secretaries and five assistant secretaries all 
appointed by the President. Now imagine if they had been Mr. 
Albough, Michael Brown and all the rest of their roommates from 
college; how could this agency better respond with that sort of 
leadership? Wouldn't it be better to make these into civil 
service positions so that they would be people who would not 
change every time an administration changes, with these or even 
more stringent qualifications? And don't you think we might get 
some--does anybody object to the idea that they maybe should be 
permanent, merit-based, civil service with at least these 
requirements if not more? Do you think there is something 
inherently good about them being political? Anybody want to 
volunteer that is a great idea, they should be political?
    Mr. Lenkart. The issue is not whether they are political 
appointments or not; the issue is whether they have the 
experience.
    Mr. DeFazio. Right. Well, it is because, even if they have 
the experience and even if they are good--which thus far we 
didn't have, maybe the new director--but the point is, they are 
going to change every time the President changes. Will that be 
good for the organization? Every time a President changes, we 
are going to change all eight top management positions at FEMA, 
and they go in what is called the plum book? Have you ever seen 
the plum book? It is thousands of appointments that are 
political. Now even if they have some qualifications attached, 
don't you think t would be better if these were permanent civil 
service positions? I mean, wouldn't that be better? Are you a 
political appointee?
    Mr. Lenkart. In essence, yes, but I competed for my 
position, and it was selected based on my qualifications, not 
based on--
    Mr. DeFazio. Right. But the problem is, you get varying 
degrees of scrutiny or competence demanded by the White House. 
And in this case, no one here is going to defend Michael Brown 
or his management of the agency, right? So that is a real 
question. Why do we to want continue to make it political?
    And you keep saying that well, it can't be all--I want it 
to be all-hazards, too, but the question is, if you put it 
under a political appointment or next door to one who is the 
Secretary of Homeland Security and then, at certain times, the 
under secretary gets to report to the President, the rest of 
the time he or she is relating back to this other political--I 
mean, I think you are creating uncertainty that would be better 
dealt with with permanent professional appointments. Look, 
let's face it, this is part of a big cover-up. The Department 
of Homeland Security was created one night out of the basement 
of the White House to get Colleen Rowley off the front page of 
all the newspapers in America. She was spilling her guts about 
what happened at the FBI before 9/11. The White House to that 
date had fought it. Suddenly we have got one. It is passed 
intact in Congress; they use it as a political club against 
Democrats--
    Mr. Reichert. Does the gentleman have questions?
    Mr. DeFazio. Yes.
    Mr. Reichert. The gentleman's time has expired.
    Mr. DeFazio. We tried to take FEMA out twice, and it was 
resisted by the Republicans. And we have a disaster, and now we 
are going to try to paper it over again. I think we should go 
back to an independent agency with professionals and not 
political appointees.
    Mr. Reichert. The gentleman's time has expired.
    We have Mr. George Forsman, who is--
    Mr. Pascrell. Mr. Chairman, can I make just one quick 
comment?
    Mr. Reichert. Mr. Pascrell.
    Mr. Pascrell. I consider Mr. Forsman to be a professional. 
Well, he is there now.
    Mr. Reichert. I would also add Mr. Forsman to that list 
of--there are qualifications that are laid out in the bill that 
require appointments to be qualified.
    Mr. Dicks. I think there is--
    Mr. Reichert. Mr. Dicks is recognized.
    Mr. Dicks. I think there is an important point whether you 
have all political appointees. I can certainly see the director 
and the deputy, but maybe, after that, you go to a senior 
executive service and you get more continuity to FEMA and give 
people to whom this is their whole life. Their whole career is 
being there at that Federal agency. It is something you might 
want to consider. I think it is worth considering.
    Mr. Reichert. Thank you, Mr. Dicks.
    Mr. Rogers is recognized.
    Mr. Rogers. Thank you, Mr. Chairman.
    I would like to get back to what Mr. Lungren referenced, 
and that is, talk about what we learned from our most recent 
experience with Katrina and Rita.
    After Hurricane Katrina last year, FEMA called on the 
Federal Protective Service to help with securing food 
distribution sites as well as other disaster-related sites in 
New Orleans and other coastal areas. As a part of that effort, 
they turned to Blackwater USA and Wackenhut Services and St. 
Bernard's Parish Sheriff's department also turned to DynCorp 
security personnel to assist in that initiative. I would like 
to ask, Dr. Jenkins--and maybe, Mr. Holdeman, if you would like 
to kick in--tell me about your thoughts on the role of private 
security forces in these disaster response efforts.
    Mr. Jenkins. I think it is one of those issues in terms of 
preparedness, one of the things that FEMA has not done a very 
good job of is being able to identify non-governmental 
resources that they can draw on. Certainly, for example, one of 
the issues in Katrina, in terms of being able to have security 
forces that could provide public safety, was the effect that 
normally the way it is set up is, you would draw upon the 
National Guard to do that. There weren't as many National Guard 
in the country as there might have been under different 
circumstances; it was a limited number.
    One of the things that we have recommended that FEMA do is 
identify private resources that they can draw on, identify 
those resources in advance, have them as a contingency 
available of training that is needed when it is not possible 
for local law enforcement as it was in New Orleans to do 
everything they needed to do.
    Mr. Rogers. But from your review of what happened in New 
Orleans, Louisiana, Florida and Texas, did they perform 
adequately, the private security personnel, or have you 
reviewed that at all?
    Mr. Jenkins. We have not reviewed that in detail. We do 
have some work ongoing on that right now.
    Mr. Rogers. Do you have any thoughts, Mr. Holdeman?
    Mr. Holdeman. Just very briefly, as an emergency manager, 
we are looking for assets that can quickly be deployed and be 
put to use, whether public, private, Federal, military, 
volunteers, what have you. So we are not concerned about the 
source of it but that it is effective in all manners. And I 
personally have not looked at the security side; I would like 
to recommend that our law enforcement colleague speak to that 
directly.
    Mr. Lenkart. Thank you, Congressman.
    There definitely is a value for private security. There is 
a place for private security within the overall response 
system. In Europe, a lot of countries where security forces are 
actually careers more so than they are part-time jobs or 
temporary jobs. They are actually part of the first responder 
community. When you see a bomb go off on the subways or 
wherever, a lot of those folks running around in those vests 
are private security companies. So there is a place for that. 
There is room for development of that. Just the same when you 
are dealing with private security companies; there are some 
companies in the U.S. where their ability to protect has 
certainly been questioned--you mentioned Wackenhut was one of 
them--certainly under the Department of Homeland Security, that 
has come under scrutiny.
    If we were going into a situation where we were going to 
use them permanently as part of the first responder process, I 
think there needs to be a lot of careful scrutiny that needs to 
be done and certainly a lot of training as well. But there is 
room for that, yes.
    Mr. Rogers. It seems to me, when you look at who FEMA 
turned to, which is the Federal Protective Service, for 
assistance; even their organization, which has 15,000 
employees, of those 15,000, 13,500 are private contractors. In 
FEMA or in the post-Katrina New Orleans circumstance, 750 folks 
from Blackwater, 600 from Wackenhut, and 75 in St. Bernard 
Parish, these are folks that are available for surge capacity. 
It just seems to me, and I gather from the responses that you 
all believe that we ought to be looking at these resources as 
part of our contingency planning, just like we look to private 
contractors post-disaster clean-up resources.
    And the last thing that I want to leave with--Mr. Kasinitz, 
you made a comment in your statement that you thought the most 
important part of this legislation is credentialing of 
firefighters. I would love to hear you expand on that.
    Mr. Kasinitz. Sure. There are models in place for this, but 
the basic concept of this would be, in advance, the Federal 
Government would be able to work with the national consensus 
standards-making bodies which define what qualifications fire 
fighters should have and develop some protocols where these 
would be the credentials for people to respond. I should note 
that the U.S. Fire Administration has already developed a model 
for this, so it is simply a matter of implementing it.
    Mr. Rogers. Would this be full time or volunteer? See, I 
represent a poor rural district where most of my firefighters 
are volunteers.
    Mr. Kasinitz. Absolutely, volunteer firefighters would be 
part of this as well. There is no reason to differentiate on 
employment status. The only differentiation would be your 
quality and your level of training.
    Mr. Rogers. Thank you.
    I see my time is up. Thank you, Mr. Chairman.
    Mr. McCaul. [Presiding.]
    The chair now recognizes the ranking member on the 
Subcommittee on Investigations, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman.
    And let me thank each of you for being here testifying 
today and to my colleagues for their work on a piece of 
legislation that I hope we will be marking up next week.
    Whether we are talking about an all-hazards approach or 
others, it seems to me that what you have said is that we don't 
need one piece of the agency working on terrorism over here and 
another piece of it working on natural disasters over here, 
because all that does is create a division of responsibility. 
And if you have something happen and a fireman shows up, a 
police officer shows up, EMS shows up, whoever shows up, they 
are going to have to deal with what is there. So if we haven't 
already had the prepared people trained for it and ready, we 
create the problem. And ultimately, not only do we have 
confusion at the top, but we have a difficult job down where 
people are getting the job done.
    And I, like many of my colleagues, have been to Louisiana 
and Mississippi twice now, and I think the people there will 
tell us, folks, those of you in Washington or wherever, fix the 
problem because it sure didn't work for us, that is what I 
heard. And they want results. And we are now three weeks away 
from hurricane season, and whatever we do here, we probably 
won't have it finished by the time hurricane season starts. And 
North Carolina is one of those States that is sort of in the 
middle zone; we sort of have a bull's eye on our back and have 
for a long time.
    So let me ask you a couple of questions. Setting up the 
scenario of a response from terrorism and a natural disaster, 
it seems to me--can you agree that that would create confusion 
for locals and increased bureaucracy? Is that yes or no?
    Mr. Lenkart. That is yes, especially when the Feds show up.
    Mr. Etheridge. So it would create a bigger burden on 
planning and reporting and all the other things.
    With that being said, let me ask you a question, Coach. On 
Saturday, I was at the establishment of a Fallen Fire Fighters 
Memorial in North Carolina, the first one we have had, to 
remind us that they have been at it for a long time. Many of 
the groups we have heard from have raised a concern over the 
types and number of reports that they now have to submit to 
DHS. Can you comment on this? And do you have any suggestions 
about how we can streamline this process as we are writing 
legislation now so there won't be such a burden? You know, if 
we are trying to create an all-hazards approach, can we make 
sure that our grants and our paperwork, we don't wind up adding 
more burden than we already have?
    Mr. Holdeman. If I may briefly. We actually track our time 
in the King County Office of Emergency Management. In 2001, we 
were spending 75 percent of our time on disaster preparedness, 
and today we are spending about 25 percent of our time on 
disaster preparedness, and the other 50 percent is now on grant 
administration. So the big thing that would be very helpful to 
us is, streamline the grant-making process. We need block 
grants; give us block grants. Tell us what the guide is, hold 
us accountable to it. But that would be immensely helpful.
    Mr. Etheridge. Do each one of you agree with that?
    Mr. Jenkins. I would say that we believe it is important; 
it can be streamlined. There are a lot of legitimate complaints 
by local responders, the number and variety of reports that 
they have to make, and it is less important what they spend it 
on than what they have accomplished with it. And so it is--I 
agree it is the accountability issue that is key, some kind of 
reporting that gives you accountability for the funds and how 
you have used them well.
    Mr. Kasinitz. Congressman, just to raise one example, in 
Fire Service grants, as you all know, the FIRE act and SAFER 
grants, I am sure Mr. Holdeman is familiar with these grants, 
but I certainly understand from his perspective why block 
grants are advantageous. We actually see it from a different 
perspective, from the front line emergency responder, because 
FIRE grants and SAFER grants are the one grants we know are 
coming directly to the fire department. And the frustration our 
people have on the front line is, when they do see block 
grants, they are saying we are not seeing it, the money is 
disappearing in the process. So that is why grants that have 
specific purposes, we see some real benefits to.
    Mr. Etheridge. But to streamline the ones that we have, 
okay.
    Mr. Holdeman, you are in county emergency management, and 
you are probably on the front line if anything happens, whether 
it is natural--whether it be terrorism or otherwise. Based on 
your experience, what would you consider the best division of 
responsibility between the county, the State and the Federal 
Government, whatever the disaster may come?
    Mr. Holdeman. It is not a divisional responsibility, and I 
think that is one of the issues we have got. We have got to say 
we, we are in it. The unified command means we. We are not in 
Iraq. In the former--it was clear who was in charge of Iraq 
before the Iraqi war. We have a Federal system, and we have to 
do it. And the only way the we is going to work is if we know 
one another in advance and we are working the issue before 
something bad happens. If you see people exchanging business 
cards at the scene of an incident, it is not going to go well.
    Mr. Etheridge. Good answer. Thank you, sir.
    I yield back.
    Mr. McCaul. The chair recognizes Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman.
    Mr. Kasinitz--thanks to all of you for your testimony--but 
thank you for the exact examples. Yours are the only examples 
that we have that are solid examples of failure to perform. So 
as you reconsider, you have heard some of the comments here 
that if we just were rid of the top dog, Bush, if we were rid 
of that demon, Mr. Chertoff, that this thing would have run a 
lot better. But when I start looking at your exact examples, do 
you think it was Mr. Chertoff or Mr. Bush that put those 
thousand people down there in that Atlanta hotel room and had 
them sit down there at the government expense rather than 
coming down helping your firefighters who are beating the 
daylights out of their bodies to get in and out and around, do 
you think that came from the top level or do you think that was 
a little lower level?
    Mr. Kasinitz. I am sorry, Congressman, I have no knowledge 
of where those orders actually came from.
    Mr. Pearce. What did you say? Could you speak more closely 
to the microphone?
    Mr. Kasinitz. I do not know who it was that--
    Mr. Pearce. Mr. Jenkins, do you want to speculate? Was that 
any failure from the top levels?
    Mr. Jenkins. Probably not.
    Mr. Pearce. Probably not. How about those batteries? In 
other words, you say in your testimony that it was a failure of 
resources, to an extent, financial, human, yet we had the money 
to go out and by the daggone batteries, but we didn't have 
anybody with enough God-given sense to give them out to the 
people that needed them. The same thing existed with the fuel. 
Do you think those decisions to hoard the batteries and the 
fuel originated with the President of the United States or with 
the Secretary or with Mr. Brown, for all his failures?
    Mr. Jenkins. Really, I doubt that they originated with the 
President, but I have no idea where they did originate.
    Mr. Pearce. Now your agency went down there to take a look 
at this. Did you ever take a look at any of the problems that 
were actually on the ground--let me finish up. Because when I 
look at your testimony, I see four clear findings on page 3, 
the clarity of FEMA's mission, and for the life of me I can't 
see where the mission is going to put a thousand people in an 
Atlanta hotel room when they are killing our people on site day 
in and day out, 24/7. I can't see a thing about the clarity of 
the mission that would cause them to hoard the fuel, buy all 
the fuel and then not give it to all those fire fighters. And I 
for the life of me can't see anything about the clarity of the 
mission that would cause them to do the same thing with 
batteries. So your first comment related to the actual 
circumstances Mr. Kasinitz brought up lacks some thoroughness.
    Then you talk about experience, and for the life of me, I 
can't see that people have the experience to go out and know 
that they are going to need to buy the fuel, but somebody made 
a decision not to hand that fuel out, and I don't think that 
came from the President or Mr. Chertoff.
    And then your next two findings, the adequacy of human, 
financial and technological resources. And finally the 
effectiveness of planning exercises. So none of those things 
actually address the circumstances that Mr. Kasinitz brought 
up, and I think he brought them up adequately because every 
failure--you can talk about it in general terms, but some day 
you have got to talk about the specific problems. And when I 
look at the specifics, the only specifics in front of this 
committee today, I don't see anything in your report that deals 
with the specific failures. Have I missed something in your 
report?
    Mr. Jenkins. I think, for example, that exercises are 
crucial. That is how you know what people are going to do, how 
they are going to get together, what the problems are. 
Hurricane Pam was an exercise that wasn't followed through on. 
If you have good exercises, where everybody that is working 
together knows what you know, one of the things that will come 
out is, what if I don't know where the batteries are? What if I 
don't know who is responsible for getting those batteries to 
the right people? So one of the key areas in terms of knowing 
what you need to do, what the problems are, specifically what 
the problems are is very good exercises that are realistic and 
that address--they are designed to stress the system and 
identify the problems that you have and correct those problems.
    And so one of the things that can address the fuel and the 
other things is, when you do exercises and the fuel doesn't get 
there and nobody knows who has the fuel or where it is, you can 
then identify what the problem is.
    Mr. Pearce. With all due respect, sir, you can take every 
single person in this room today and you put them in charge of 
the fuel, and no matter what their written orders were, no 
matter what the President of the United States is directing 
them to do and no matter what Mr. Chertoff and Mr. Brown are 
doing, any single one of those people would have looked at 
those dog-tired fire fighters and called those thousand people 
down and quit giving out brochures and get out here where the 
problem is. They would have handed the batteries out. They 
would have broken the boxes open and walked out and started 
giving them to the people to put into their radios. And to say 
that we need more training to cure those kind of problems in my 
mind avoids that you have got some problems, and with all due 
respect to my colleagues, those problems I think originated 
deep within the department, deep down inside, those people who 
are merit-based, who are civil service positions; they are the 
ones making those decisions not to give that stuff out. I don't 
think I see anything in your report to deal with that.
    I thank each one of you for your comments today.
    Mr. Chairman, thanks. I am a little bit over.
    Mr. McCaul. The chair now recognizes the gentlelady from 
Texas, Ms. Jackson-Lee.
    Ms. Jackson-Lee. Let me thank the witnesses for your 
presentations. They have been extremely insightful. And let me 
thank the--instructive, not exciting, but let me thank the 
proponents of the legislation, one, for your thoughtfulness, 
but also for allowing those of us who might be celebrating 
Mother's Day not to go into the holiday with a headache of a 
mark up, so we thank you very much for your sensitivity to 
that. But at the same time, it will give us the additional time 
to review this legislation and to hopefully provide a 
complimentary, if you will, assessment of some of the areas 
that I think are keenly in need of addressing.
    It is very clear that I have thought that leadership is 
important, and I made the point. And I will use, first of all, 
the backdrop of Hurricane Katrina and Rita. And I think it is 
important to re-state that I think leadership was missing. In 
fact, I won't say, I think; it was evident that leadership was 
missing, at least from the very top of the agency. I don't 
think the present Secretary of Homeland Security gets it. And 
he didn't get it at the time of Hurricane Katrina. He didn't 
put on his leadership general hat that Mr. Holdeman, I would 
imagine, you would put on if there was a disaster in your 
county. He didn't bother to get an understanding that you had 
to gather the troops, whether they were State troops or city 
troops or--and I use the term in quotes, you had to gather the 
boy scouts and the girl scouts and you had to make this thing 
work because people were dying.
    So we know that we had a crisis in leadership. We then had 
a crisis in leadership at the FEMA level. And so I am somewhat 
empathetic and sympathetic to the idea of an independent FEMA, 
but I also see a very valid theory with the proposal in this 
legislation, particularly the concept of an all-hazards 
leadership, that is very important. So let me pose these 
questions.
    And let me say to Mr. Kasinitz, I don't think there is a 
time when a firefighter is in front of me that I don't begin 
trying to remind America and my constituents of the enormous 
debt of gratitude that we owe our firefighters, not only for 
the lives and the protection they have given us through the 
decades, through the centuries, but certainly 9/11 stands as a 
very prominent example of the heroics and the absolute 
sacrifice that was made.
    So the first question goes to you--and I might add the 
Fraternal Order of Police and as well your service. We should 
never forget 9/11 for the ones that lost their lives, but 
certainly the first responders who went in with no question of 
their own safety. So this question, Mr. Kasinitz, goes to one 
of the elements of this bill that I hope that you would think 
would be crucial, but I want a timing element to it, the 
interoperability issue; do we need to be doing this yesterday--
excuse me, do we need to be waiting to do this next month, 2 
years from now? Or is this something that we should be doing or 
should have done yesterday, last month, last year? This whole 
question of interoperability, how damaging, how much of a 
concern do you have on the issue of interoperability?
    Mr. Kasinitz. Thank you, Representative, and it is a huge 
problem, a continuing problem. You cannot name a major disaster 
where we have not seen serious communication issues. We think 
the provisions of this bill are extremely helpful and will go a 
long way toward addressing the problems, but the problems are 
even broader than that. Before we can even address the question 
interoperability, we have to address the problem of basic 
operability. You have firefighters within the same department, 
even within the same company who at times are unable to 
communicate on an emergency scene. So it is a very serious 
issue that keeps cropping up. You are absolutely right; we were 
long overdue. This is a problem that has been identified for 
more than 10 years, and we are very eager to see it is 
addressed as quickly and as rapidly as possible.
    Ms. Jackson-Lee. So along with this authorizing bill, you 
obviously need money and you need to move quickly, and you need 
to include language possibly dealing with the operability 
question for fire departments across America.
    Mr. Kasinitz. Absolutely.
    Ms. Jackson-Lee. First responders.
    Let me go to Dr. Jenkins and say to you that one of the 
appalling representations or acts that occurred with Hurricane 
Katrina was the enormous abuse of American taxpayer dollars. I 
don't think we will ever come from underneath the mud of the 
abuse of funds.
    Let me ask you this question about the layering of 
contracts. And also, even though we are talking about FEMA, one 
of the nexus that we failed to include is the nexus of the Army 
Corps of Engineers. I believe that there should be some 
connection, because when you go into a disaster area, part of 
your colleagues come from the Army Corps, part of the letting 
of contracts. And we found that the Feds overpaid by 20 
percent, some $39.5 million dollars in no-bid contracts. Can 
you speak to this question of layering of contracts? I don't 
know where that came from. All of a sudden you are giving a 
contract to big shot corporation so and so--I am going to be 
nice maybe and not call out a name--but big shot so and so, 
somebody's friend, and all of a sudden you have four and five 
layers so the guy at the bottom is making $6, but the taxpayers 
are being hung around the neck. Is there something that we can 
point at and fix, or is there something you would like to point 
out that really addresses that question in this legislation?
    Mr. Jenkins. I am not sure I can point out something 
specific in the legislation.
    Ms. Jackson-Lee. Do you find that to be a problem?
    Mr. Jenkins. It definitely is a problem. It is not my area, 
but the GAO has issued a couple of testimonies on this. Two 
basic issues here, one is having, in Katrina, the big 
contracts, the ones where there were the biggest problems were 
contracts that didn't have in advance express contracts with 
accountability of who was going to do what; they just simply 
made what are called mission assignments or blocked mission 
assignments to the Corps and to these large corporations and 
said, this is what we want you to do. There wasn't a lot of 
accountability for the subcontracts and how they were priced, 
accountability for them. And so one of the recommendations that 
GAO has is that these contracts, you do not let these 
contracts, after the disaster you have these contracts with 
performance clauses in them and pricing clauses in them before 
the disaster happens, and then they can be activated after the 
disaster happens. But part of the problem was that issuing very 
large contracts to get something done quickly, they were done 
without competition for the most part, and they were done 
without clear pricing.
    Ms. Jackson-Lee. And maybe we needed to go to the smaller 
companies in the first place. There was no advantage to going 
to large companies who then were going to let it to smaller and 
smaller and smaller and up the price; was there an advantage to 
that?
    Mr. Jenkins. You know, with regard to debris removal, for 
example, there was no reason that FEMA could not also have 
contingency contracts with local companies for debris removal 
as opposed to having a national company do that. There is all 
sorts of options in terms of who they have that contract with, 
but the important thing is that they contract in advance for a 
specific price. There were lots and lots of problems with these 
contracts, people getting paid for the same dump load because 
they took it to point A, and they got paid for it. And then 
they took it to a second point and they got paid for exactly 
the same load of debris over again.
    Ms. Jackson-Lee. I thank the chairman for his indulgence, 
and I see there are other members. I do have an additional 1 
minute, I would like to probably wait and ask the chairman for 
his indulgence to be able to probe another individual on a 
question that I had.
    [The statement of Ms. Jackson-Lee follows:]

         Prepared Statement of the Honorable Sheila Jackson-Lee

    I thank the Mr. Chairman and the Ranking Member. I thank the 
witnesses for their attendance.
    The devastation and wreckage wrought by Hurricane Katrina last 
summer is powerful testimony to the damage that can be done to our 
country by natural disasters and terrorist attacks. Hurricane Katrina 
also showed us how unimagined human suffering can be exacerbated when 
leaders fail to prepare adequately or simply do not measure up to the 
requirements of their job. We simply can no longer afford to entrust 
the safety of our people and the security of our nation to those who 
are unqualified to do the job entrusted to them.
    Today we hear from representatives of the fire service, law 
enforcement, and emergency management on how the Department of Homeland 
Security could enhance its preparedness and response to acts of 
terrorism, natural disasters, and other emergencies. I am particularly 
interested in hearing from the witnesses as to whether they endorse the 
``National Emergency Management Reform and Enhancement Act of 2006,'' 
the bill the Committee will be marking up next week. I hope the 
witnesses are able to tell us whether the proposed legislation is 
likely to succeed in:
    (1) strengthening and better integrating the Federal Emergency 
Management Agency (FEMA) into DHS;
    (2) implementing many of the lessons learned from the inadequate 
national response to Hurricanes Katrina and Rita;
    (3) enhancing Federal coordination with State, local, and tribal 
governments, the National Guard, emergency response providers, 
emergency response support providers, nongovernmental organizations, 
including faith-based groups, and the private sector;
    (4) restructuring DHS' activities and programs to accelerate the 
development of redundant, survivable, and interoperable emergency 
communications capabilities; and
    (5) preventing waste, fraud, and abuse in all DHS assistance 
programs.
    Finally, Mr. Chairman, I want the record to be clear that the 
problems FEMA encountered before, during, and after Hurricanes Katrina 
and Rita did not plague the agency during the 1990s under the Clinton 
Administration. Leadership matters. Competence matters. It was a 
Democratic Administration that valued the importance of emergency 
management and FEMA by appointing a qualified leader in James Lee Witt. 
This Administration appointed Michael Brown. No legislation, no matter 
how well drafted or crafted, can compensate for the lack of competent 
leadership.
    Thank you. I yield the balance of my time.

    Mr. McCaul. Sure. And I would like to make a quick response 
that I share the gentlelady's concern about fraud. That is why 
we put a fraud, waste and abuse provision in this bill that 
mandates that the Secretary put fraud controls in place.
    The chair now recognizes Mr.Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    I would like to thank our panelists today.
    There was a lot of talk about whether FEMA should become an 
independent agency as it had been before or remain in the 
Department of Homeland Security, but my question to all of 
you--and I would like to hear what you think about this, but 
given the catastrophic nature of Hurricane Katrina, do you 
believe that if FEMA evolved as a stand-alone independent 
agency, it would have been able to respond adequately under 
those difficult circumstances?
    Dr. Jenkins, do you want to try it?
    Mr. Jenkins. To be honest with you, probably not. FEMA had 
problems--I mean with logistics, it just had no ability to 
track material, where it was, where it was headed. We were 
asked to do some work looking at, fairly quickly, about mission 
assignments and whether or not the material that FEMA approved 
to be delivered actually got there, and there was no way to 
find that out.
    So there were some fundamental problems that FEMA had in 
terms of logistical support, particularly for anything of the 
size that it was, housing and so forth, and it is unlikely, to 
be honest, that those problems would have been much different 
had FEMA been independent.
    Mr. Dent. So merely moving FEMA wouldn't enhance its 
capabilities, in other words.
    Mr. Jenkins. No.
    Mr. Dent. Anybody else wish to comment on it?
    Mr. Holdeman. The House report that calls it a failure of 
initiative I think nails it right on the head there that this 
was a catastrophe, and all resources are overwhelmed there. But 
they were doomed from the start by not maintaining situational 
awareness and having the leadership in place to be able to 
respond quickly.
    Mr. Dent. My other question was, under James Lee Witt, do 
you think FEMA's effectiveness was a function of his personal 
relationship with President Clinton or because FEMA was an 
independent agency?
    Mr. Holdeman. Absolutely. It is one of the things--James 
Lee Witt came out of Arkansas, he was his Governor's emergency 
manager. There was a personal relationship aspect to that, so 
you can't discount that. But I don't think that could be a 
selection criteria for the director of FEMA for the future. I 
think the qualifications are key, and then ensuring that the 
access is there.
    Mr. Dent. I guess the question I have, too--maybe this 
would be again to Dr. Jenkins--but if we were to move FEMA out 
of Homeland Security and say we also moved some areas as it 
relates to preparedness, prevention and first response 
activities, and if you look at the budget for DHS, we are 
talking about 39 percent of DHS budget in that area; it is 
about $14 billion, if we were to move those functions out of 
Homeland Security, I guess my question would be, what would be 
the remaining mission of the Department of Homeland Security if 
we moved those functions out of the Department?
    Mr. Jenkins. Well, I mean, obviously FEMA has Secret 
Service, and it has Coast Guard. It has Border and 
Transportation Security, Immigration, so it would still have 
all of those functions, those are not really preparedness 
emergency response functions, so it would still have all of 
that.
    Mr. Dent. Anybody else wish to comment?
    I yield back the balance of my time.
    Mr. Reichert. The chair recognizes Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. And with less 
than a month to go until hurricane season, and for other 
reasons, I really want to commend the committee chairs, 
subcommittee chairs and ranking members for this bill and for 
today's hearing. It is very important.
    And on many occasions over the last 3 years or so, I have 
asked why FEMA was not the Office of Preparedness and why 
preparedness and response was so separated. And even after 
several responses by the Secretary as late as his last 
appearance before the full committee, I had to say to him that 
I was not satisfied with his response and this structure. I 
just couldn't understand it. So this bill, the National 
Emergency Management Reform and Enhancement Act of 2006 
provides the appropriate remedy, I think. And most important, I 
think it responds to some of what we have heard through many, 
many hearings, especially with our first responders, those on 
the front line.
    And I am also glad that we have such a substantive bill 
that does not take FEMA out of the Department of Homeland 
Security, perhaps because I have had experience with FEMA over 
the years and seen it working in a much more effective manner, 
even though I would--granted, this was a catastrophe, I feel 
that it can work. It needs to be torn down and rebuilt from 
scratch, and I think this bill does that.
    I want to make a couple of suggestions though before I go 
to questions; one you can probably guess at, which is that 
wherever it says State, local and tribal, it also say 
territorials. I know my people at home and those in Guam and 
American Samoa and Puerto Rico would want to have that.
    And I also want to just say for the record, too, that I 
strongly support the GAO recommendation that gives explicit 
authority to FEMA to predeploy resources and personnel and 
assets before the incident. They have a history of doing that 
even without the explicit authorization, but I think that would 
just make it firmer, and it would be a good thing to also have 
in the bill.
    Mr. McCaul. If the gentlelady will yield, territories are 
defined as States in the Homeland Security Act, and we thought 
that would be important to note.
    Mrs. Christensen. It is as States? Okay. Thank you. Thank 
you for that clarification.
    My first question would be to Dr. Jenkins. I wonder if you 
had a chance to look at section 505, the Chief Medical Officer 
part of the section, and if you would be able to tell me 
whether this is a--this clearly defines his role, vis-a-vis 
that of the assistant secretary for emergency preparedness and 
response in the Department of Health and Human Services and 
whether it also defines how they coordinate activities? I am 
always concerned that we are going to get into a situation, and 
there will be this person in HHS and this person in DHS or 
FEMA, and something will fall between the cracks.
    Mr. Jenkins. And I actually asked--we have a healthcare 
group, and I have actually asked them to look at that to see--
because they are more expert on that, and so I can get back to 
you on that. But I did ask them to look at that for that very 
reason, though, the whole issue of clarity and roles there.
    Mrs. Christensen. I would really appreciate that. And Mr. 
Chairman, I think that--both chairmen, I think that would be 
something that the committee would find useful as we move this 
through mark-up and to the floor.
    Mr. Lenkart, in your testimony, you say the draft language 
also extends to State and local jurisdictions the opportunity 
to become better prepared and integrated into a much larger 
system. And I would ask you and Mr. Kasinitz, do you see this 
all providing a better and more structured opportunity for 
first responders to be an integral part of the planning and the 
standard setting as we move forward if this bill were passed?
    Mr. Lenkart. Yeah, absolutely. I would say a great model 
for it is how this committee has handled the construction of 
this bill. It was reached out to the first responder industry, 
police, fire, EMS, public, private entities, environmental, 
medical folks. By reaching out to the folks on the ground to 
build this bill, this bill is more reactive to those folks all 
the way on the ground. So it is a bottom-up and top-down bill 
and absolutely will give the first responder industry--it will 
give them the tools that they need to do and get more 
integrated at the same time.
    Mrs. Christensen. Thank you.
    Mr. Kasinitz.
    Mr. Kasinitz. In addition--and I do wish to compliment the 
staff, who have done a tremendous job of reaching out, 
including the input from emergency responder groups, but there 
is actually a provision in the bill which creates a new 
advisory council which will guarantee that we will have an 
ongoing opportunity to provide input into revisions to the 
National Response Plan and the National Center Management 
System and other systems and protocols.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Mr. McCaul. The chair now recognizes Ms. Jackson-Lee for 1 
minute.
    Ms. Jackson-Lee. I thank the Chair very much.
    Let me ask you--I am just going to probe you, Dr. Jenkins, 
because I may not have read every line in your report. Mr. 
Kasinitz has talked about the 30-person advisory committee. 
Walking through the areas of New Orleans with Hurricane Katrina 
and seeing some of the damage of Hurricane Rita in parts of 
Texas and then of course living with 200,000-plus Hurricane 
Katrina survivors, people were impacted by this horrible 
disaster, and my colleagues already said we are approaching 
hurricane season; I think it would be helpful to have--the 
language on the advisory committee says experts--I think it 
would be enormously advisable to have citizen type, at least a 
representative of that individual who represents the impactee, 
if you will. Would you find that valuable in such a committee?
    Mr. Jenkins. I think it is useful to have citizen input 
generally. One of the reasons for that, to be honest with you, 
is, in many instances, what is most valuable for people to do 
is understand why staying in place is the best thing. And so 
they have a better sense of what the considerations are.
    Ms. Jackson-Lee. And I have another question--
    Mr. Jenkins. It is a communications tool.
    Ms. Jackson-Lee. So there is value from their input.
    And the other question I will put together. There is an 
aftermath that FEMA was responsible for. And I am still looking 
through the bill to see if that happens, the whole housing 
question, disaster recovery centers; a complete mess, one, 
because it again contracted out for huge conglomerates, not 
using local people. What is the value looking at the aftermath 
treatment? And also, there is a small minority provision in 
here, but it creates a database. And I don't want to get into 
affirmative action and such. But can we be more forceful in 
looking for those local businesses that can get on the ground 
faster?
    Mr. Jenkins. Again, as I mentioned earlier, what we 
recommended that FEMA do, whether it is housing, whether it is 
immediate food and shelter, whether it is security or whatever, 
that FEMA really needs to be reaching out to look at non-
governmental entities that can help them and particularly ones 
that have knowledge of the local community, whether it is the 
faith-based organizations or others, that they need to be 
reaching out to be able to do that and communicate with them 
and be able to draw them into the process.
    Ms. Jackson-Lee. So, in conclusion, then, I hear what you 
are saying is that, in the aftermath, where they have done 
housing and the collapse, where people were saying, I didn't 
get my benefits, the disaster recovery center wasn't working 
because they brought massive numbers of corporate strangers--
not the FEMA workers who come in from around the country, but 
corporate strangers into the area; we need to be a better job 
with the aftermath. And you are saying the same thing with the 
small business scenario, that it can be better by looking at 
the local community to be of help.
    Mr. Jenkins. Yes.
    Ms. Jackson-Lee. I thank the gentleman.
    Mr. McCaul. The chair recognizes Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman.
    I would say to the gentlelady that one of the reasons for 
the advisory committee is to help this very situation, not only 
is it to hear from first responders but also to get input from 
the communities. And I think that would be a valuable piece to 
the legislation.
    Thank you, Mr. Chairman.
    Mr. McCaul. Thank you.
    And I want to thank the witnesses for your valuable 
testimony and the members for their questions. The members of 
the community may have additional questions for you, and I 
would ask that you respond in writing to those.
    The hearing record will be open for 10 days. And the 
chairman again thanks the members of the committee and our 
witnesses. And without objection, the committee stands 
adjourned.
    [Whereupon, at 3:58 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
